No. 21In the

Supreme Court of the United States
D.F. Pace, Esquire,
Petitioner,
v.
Emily Baker-White, Esquire; Federal
Community Defender Office for the
Eastern District of Pennsylvania;
Plainview Project; Injustice Watch,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

James E. Beasley, Jr.
Counsel of Record
Louis F. Tumolo
The Beasley Firm, LLC
1125 Walnut Street
Philadelphia, PA 19107
(215) 592-1000
jim.beasley@beasleyfirm.com
Counsel for Petitioner
306995

A
(800) 274-3321 • (800) 359-6859

i
I. QUESTIONS PRESENTED
1. Whether the Court should revisit the “actual
malice” doctrine of New York Times Co. v. Sullivan
and its progeny in light of the advent of technological
advances creating internet speech never imagined by
our Founders or the Court and whether the same level of
“breathing space” deemed necessary in 1964 continues to
be necessary for Twenty-First Century speech.
2. Whether the District Court reversibly erred by
ruling Petitioner failed to state any facially plausible
claims under the law of Pennsylvania, and dismissing
the same with prejudice, on the basis that the Plain View
Project communications were inactionable opinions, as a
matter of law, as the controlling law rather compels the
conclusion that the requisite elements of Petitioner’s wellpleaded claims, including as to actual malice, were and are
amply stated and established to preclude such dismissal,
and the Complaint must, therefore, be reinstated.

ii
II. PARTIES TO THE PROCEEDINGS
Petitioner
• D F Pace, Esquire
Respondents
• Emily Baker-White, Esquire
• Plain View Project
• Injustice Watch

iii
III. RELATED CASES
The proceeding in the courts whose judgment is
sought to be reviewed are:
1.

United States Court of Appels for the Third
Circuit Nos.: 20-1308 & 20-1401
D.F. Pace, Appellant v. Emily Baker-White,
Esquire, Plain View Project, and Injustice Watch
Date of Final Judgment: April 21, 2021

2.

United States District Court for the Eastern
District of Pennsylvania
Civil Action No. 2:19-cv-04827-WB
D.F. Pace, Plaintiff v. Emily Baker-White,
Pla i nv iew P roject , a nd Injustice Wat ch,
Defendants
Date of Final Judgment: January 13, 2020

iv
IV. TABLE OF CONTENTS
Page
I. QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . i
II. PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . ii
III. RELATED CASES  . . . . . . . . . . . . . . . . . . . . . . . . .  iii
IV. TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . iv
V. TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . vi
VI. TABLE OF CITED AUTHORITIES  . . . . . . . . . . vii
VII. PETITION FOR WRIT OF CERTIORARI . . . . . 1
VIII. OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . 1
IX. JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
X. CONSTITUTIONAL PROVISIONS . . . . . . . . . . . . . 1
XI. STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 2
A. B a sis for Ju risdiction in the C ou rt
of First Instance . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Relevant Facts  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
XII. SUMMARY OF THE ARGUMENT . . . . . . . . . . . 6
X III. REASONS FOR GRA NTING THE
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

v
Table of Contents
Page
A. New York Times A nd Its Progeny Must
Be Reconsidered . . . . . . . . . . . . . . . . . . . . . . . . . . 7
1.

Today’s “Information Age” Calls
for Reconsideration of the Policy
Justifications Set Forth in New York
Times . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

B. The District Court Reversibly Erred in
Determining the Challenged Statements
Not Ca pa ble of D efa matory M eaning
and I nstead C onstitute I nactiona ble
“Opinion” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
C. A pp e l l a n t H a s S u ffici e n t ly P l e d
	Actual Malice  . . . . . . . . . . . . . . . . . . . . . . . . . . 20
XIV. CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vi
V. TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals FOR THE
	THIRD CIRCUIT, FILED APRIL 21, 2021 . . . . . . 1a
Appendix b — opinion of the united
states district court for the
eastern district of pennsylvania,
	filed january 13, 2020  . . . . . . . . . . . . . . . . . . 11a
Appendix C — denial of rehearing
of the united states court of
appeals for the third circuit,
	filed april 13, 2021 . . . . . . . . . . . . . . . . . . . . . .  47a

vii
VI. TABLE OF CITED AUTHORITIES
Page
CASES
Braig v. Field Communications,
456 A.2d 1366 (Pa. Super. 1983)  . . . . . . . . . . . . .  15, 16
Brinich v. Jencka,
757 A.2d 388 (Pa. Super. 2000)  . . . . . . . . . . . . . . . 13-14
Celle v. Filipino Reporter Enterprises Inc.,
209 F.3d 163 (2d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 21
Constantino v. University of Pittsburgh,
766 A.2d 1265 (Pa. Super. 2001)  . . . . . . . . . . . . . 13, 16
Corabi v. Curtis Pub. Co.,
273 A.2d 899 (Pa. 1971) . . . . . . . . . . . . . . . . . . . . . . . . 13
Cosgrove Studio & Camera Shop, Inc. v. Pane,
182 A.2d 751 (Pa. 1962) . . . . . . . . . . . . . . . . . . . . . . . . 14
Dun & Bradstreet, Inc. v.
Greenmoss Builders, Inc.,
472 U.S. 749 (1967)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fraternal Order of Police Phila. Lodge No. 5 v.
The Crucifucks,
1996 WL 426704 (E.D. Pa. July 29, 1996)  . . . . . . . . . 5
Garrison v. Louisiana,
379 U.S. 64 (1964)  . . . . . . . . . . . . . . . . . . . . . . . . . 20, 22

viii
Cited Authorities
Page
Gertz v. Welch,
418 U.S. 323 (1974)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Gordon v. Lancaster Osteopathic Hosp. Ass’n.,
489 A.2d 1364 (Pa. Super. 1985)  . . . . . . . . . . . . . . . . 14
Harte-Hanks Communications, Inc. v.
Connaughton,
491 U.S. 657 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Hill v. Cosby,
665 Fed. Appx. 169 (3d Cir. 2016)  . . . . . . . . . . . . . . . . 5
In re Burlington Coat Factory Sec. Litig.,
114 F. 3d 1410 (3d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 2
Liberty Lobby, Inc. v. Dow Jones & Co.,
838 F.2d 1287 (D.C. Cir. 1988) . . . . . . . . . . . . . . . . . . 21
MacElree v. Philadelphia Newspapers, Inc.,
674 A.2d 1050 (Pa. 1996) . . . . . . . . . . . . . . . . . . . . . . . 13
Maier v. Maretti,
671 A.2d 701 (Pa. Super. 1995)  . . . . . . . . . . . . . . . . . 14
McDermott v. Biddle,
674 A.2d 665 (Pa. 1996) . . . . . . . . . . . . . . . . . . . . . . . . 14
McKee v. Cosby,
139 S. Ct. 675 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ix
Cited Authorities
Page
Milkovich v. Lorain Journal Co.,
497 U.S. 1 (1990)  . . . . . . . . . . . . . . . . . . . . . . . 15, 19, 20
New York Times Co. v. Sullivan,
376 U.S. 254 (1964)  . . . . . . . . . . . . . . . . . . . . . . . passim
Packingham v. North Carolina,
137 S.Ct. 1730 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Pelagatti v. Cohen,
536 A.2d 1337 (Pa. Super. 2000)  . . . . . . . . . . . . . 13, 16
Schiavone Constr. Co. v. Time, Inc.,
847 F.2d 1069 (3d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . 21
Spilfogel v. Fox Broad. Co.,
2009 U.S. Dist. LEXIS 139784 (S.D. FL. 2009) . 18-19
St. Amant v. Thompson,
390 U.S. 727 (1968) . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
Stanton v. Metro Corp.,
438 F.3d 119 (1st Cir. 2006)  . . . . . . . . . . . . . . . . .  17, 18
Walker v. Grand Cent. Sanitation, Inc.,
634 A.2d 237 (Pa. Super. 1993)  . . . . . . . . . . . . . . . . . 15
Weber v. Lancaster Newspapers, Inc.,
878 A.2d 63 (Pa. Super. 2005), appeal denied,
903 A.2d 539 (Pa. 2006)  . . . . . . . . . . . . . . . . . . . .  14, 15

x
Cited Authorities
Page
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I  . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 12
STATUTES
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1332(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1441  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1442(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITIES
Benjamin Barron, A Proposal to Rescue New
York Times v. Sullivan by Promoting a
Responsible Press, 57 A m . U. L. R ev. 73
(2003)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  9, 10, 11
David A. Logan,Rethinking New York Times
Co. v. Sullivan, 81 O h io S t . L . J. 759
(2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  8, 10, 11, 12
Fredrick Schauer, Slightly Guilty, 193 U. Chi.
	Legal F. 83 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Glenn Harlan Reynolds, Rethinking Libel for the
Twenty-First Century, 87 Tenn. L. Rev. 465
(2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9

xi
Cited Authorities
Page
John G. Roberts, Jr., 2019 Year-End Report
on the Federal Judiciary (Dec. 2019) . . . . . . . . . . . . . 8

1
VII. PETITION FOR WRIT OF CERTIORARI
Petitioner-Appellant D.F. Pace, Esq., respectfully
petitions for a writ of certiorari to review the judgment
of the 3rd Circuit Court of Appeals and District Court for
the Eastern District of Pennsylvania.
VIII. OPINIONS BELOW
The Order and Opinion of the 3rd Circuit Court of Appeals
for D.F. Pace v. Emily Baker-White, et al., is unpublished
but can be found at 2021 WL 963527. (Appendix A at 1a).
D.F. Pace v. Emily Baker-White, et al., reported at 432
F.Supp.3d 495. (Appendix B at 11a).
IX. JURISDICTION
The judgment of the 3rd Circuit Court of Appeals was
entered on April 21, 2021. This Court’s Order of Monday,
July 19, 2021, extended the time for all petitions for writ
of certiorari to 150 days. The jurisdiction of this Court is
invoked under 28 U.S.C. 1254(1).
X. CONSTITUTIONAL PROVISIONS
The First Amendment to the United States
Constitution provides: “Congress shall make
no law respecting an establishment of religion,
or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble,
and to petition the Government for a redress
of grievances.
U.S. Const. amend. I

2
XI. STATEMENT OF THE CASE
A. Basis for Jurisdiction in the Court of First Instance
The district court had jurisdiction of the case pursuant
to 28 U.S.C. §§ 1442(a)(1), 1332(a)(1), and 1441.
B. Relevant Facts
Petitioner and Plaintiff, D F Pace, is an attorney and
inspector within the Philadelphia Police Department
(“PPD”), who has committed his career to serving the
citizens of Philadelphia.1 (JA 042) Defendants launched
the Plain View Project (“PVP”) in June 2019, a database
compiling Facebook posts and comments by current and
former police officers which meet “PVP’s criterion,” revealing
prejudices and biases that “could erode” and “undermine
public trust and confidence in police,” and “warrant an official
investigation” because “these online statements about race,
religion, ethnicity and the acceptability of violent policing—
among other topics—inform officers’ on-the-job behaviors
and choices.” 2 (JA 039-40)
1. Pace’s service to the PPD includes the ranks of patrol
officer, sergeant, and lieutenant. In addition to this experience,
Pace has held positions in the Law Department, as Judge Advocate,
Police Academy Instructor, Public Information Officer, and
Commanding Officer of the Court of Evidence Unit. At the time
of the defamatory publication, Pace held a position of particular
importance overseeing the PPD Police Board of Inquiry which is
responsible for taking appropriate action against other members
of the PPD when a departmental violation has occurred.
2. These descriptions are taken from the PVP website. The
website is integral to and relied upon in Plaintiff’s Complaint.
Accordingly, the relevant pages should be considered. See In re
Burlington Coat Factory Sec. Litig., 114 F. 3d 1410, 1426 (3d Cir. 1997).

3
Petitioner Pace was included in the PVP database
because a comment he made on another officer’s post
allegedly fit the publicly-undefined “criterion” of posts for
PVP. Pace commented “Insightful point” in response to
another police officer’s post related to the international
news story involving the arrest and imprisonment of
college student Otto Warmbier in North Korea. (JA
043-44) It should be noted that the original post on
which Plaintiff commented does not include any racially
insensitive content or threats of violence, which posts
meeting the PVP criteria allegedly contain.
This database is the PVP’s showpiece to expose a
“nationwide policing problem” by outing “local police
officers” who “appeared to endorse violence, racism, and
bigotry.” (JA 039-40) The Defendant’s inclusion of Pace
in this database implicates him as one of the “local police
officers” part of this “nationwide problem in policing”
who harbors prejudices and biases and acts in manners
consistent with those biases in his official capacity. (JA036,
044) This implication, no matter how creatively couched
or hedged, is defamatory and places Pace in a false light.
By design, the Defendants characterize all posts
and comments included in the PVP database as equally
problematic for all the same reasons: (1) they are a
compilation of posts by “local police officers” who
“appeared to endorse violence, racism, and bigotry”
towards “Muslims,” “black men” and/or “women”; and
(2) the selected posts reveal prejudices and biases that
“could erode” and “undermine public trust and confidence
in police” and “warrant an official investigation”. To this
point, Defendant Baker-White has stated, “[w]hen I look
at those posts I don’t see them as individual posts at this

4
point, I see them in the aggregate as a body of statements
and they seem like they’re part of a larger narrative that
exists in American policing, one that at times encourages
violence or endorses vigilantism and discriminates against
minority communities.” (JA 044)
On 16 March 2016 police officer Anthony Pfettscher
created a Facebook post discussing the North Korean
arrest of Otto Warmbier, an international news story at
the time. This post was identified and included in the PVP
database. (JA043)

Appellant Pace commented, “Insightful point” in response
to Pfettscher’s 16 March 2016 post. Apparently, Pace’s
comment fit the criterion of posts by “local police officers”
who “appeared to endorse violence, racism and bigotry”
which Defendant Baker-White admittedly views “in

5
the aggregate as a body of statements [that] seem like
they’re part of a larger narrative that exists in American
policing.” (JA043-044)
The PVP database was created to “start a conversation”
about “the viewpoints expressed” in the officers’
comments, as they “could be relevant to important public
issues, such as police practices, public safety, and the fair
administration of law.”
D F Pace initiated this action in Philadelphia Court
of Common Pleas via Complaint on 17 September 2019
(JA 031) asserting defamation and false light against all
Defendants. 3 On 16 October 2019 removal was filed by
Defendant Federal Community Defender Office for the
Eastern District of Pennsylvania.4 On 4 November 2019
Defendants filed a Motion to Dismiss Plaintiff’s Complaint
pursuant to Fed. R.C.P. 12(b)(6). (JA 056) Plaintiff’s/
Appellant’s Response in Opposition was filed on 25
November 2019 (JA 090) and oral arguments were heard
on 17 December 2019. An Order granting Defendant’s
Motion to Dismiss was entered on 13 January 2020. (JA
028)

3. Pennsylvania courts apply the same analysis to both
defamation and false light. Hill v. Cosby, 665 F. App’x 169, 177 (3rd
Cir. 2016)(citations omitted); see also Fraternal Order of Police
Phila. Lodge No. 5 v. The Crucifucks, 1996 WL 426709, at *4 (E.D.
Pa. July 29, 1996)
4. The Federal Community Defender Office for the Eastern
District of Pennsylvania has been voluntarily dismissed from this
litigation.

6
Appellants filed Notice of Appeal to the Third Circuit
Court of Appeals on 11 February 2020 (JA 029) and
specifically disputed the District Court’s findings that
the complained of communication is inactionable opinion
and that Appellant’s well-pled Complaint failed to plead
actual malice.
On March 15, 2021, the Circuit Court issued its
opinion, finding that Appellant had not met its burden
in showing “actual malice,” and upholding the District
Court’s dismissal of Plaintiff’s action. On March 29, 2021,
Appellant filed a Petition for en banc Rehearing and on
April 13, 2021 an Order was entered denying Appellants
petition. Judgement was entered by the United States
Court of Appeals for the Third Circuit on April 21, 2021.
XII. SUMMARY OF THE ARGUMENT
Petitioner here respectfully submits that the Court
should grant this Petition and revisit the policy-driven
decision of New York Times v. Sullivan, 376 U.S. 245
(1964). Given the proliferation of “fake” and “polluted”
news that spreads like wild fire over the internet causing
harm to our democracy, there is a dire need to reconsider
and revise the “actual malice” standard. Absent action
by this Court, the defeated plaintiff, like Petitioner Pace,
will continue to have his reputation and professional life
destroyed by falsehoods. The dramatic change in the
“public square,” in light of the advent of the internet
and technological advances, demands this Court strike
a different balance recognizing at least some ability to
protect a public figure’s reputational harm and deter the
spread of false speech.

7
Respectfully, the District Court reversibly erred
when it granted Defendants Motion to Dismiss Plaintiff’s
Complaint, ruling: (1) the statements of which Plaintiff/
Appellant complains are inactionable opinions; and (2)
Plaintiff/Appellant has not sufficiently pled actual malice.
The Circuit Court erred when it upheld the District
Court’s dismissal of Plaintiff-Appellant’s action by finding
he had not sufficiently plead a claim of actual malice.
XIII. REASONS FOR GRANTING THE PETITION
A. Ne w Yo r k T i me s A n d I t s P r o ge n y M us t B e
Reconsidered
The question of “actual malice” in this public figure
defamation case presents the classic problem with the
virtually impossible to satisfy standard this Court
announced in New York Times Co. v. Sullivan over fifty
years ago. Here, inclusion in the PVP database, which
imputes conduct and character incompatible with the
proper performance of plaintiff’s duties as a police officer,
is plainly false. The defendant performed virtually no factchecking or investigation before including the Petitioner
in the database and publishing. They did not seek to
verify the meaning of the post with the defamed plaintiff.
Worse, plaintiff was the highest-ranking official included
in the database and his (wrongful) inclusion was intended
to demonstrate a “nationwide problem in policing” that
pervades even the highest ranks of police departments and
renders them incapable of policing their own. The lower
courts nevertheless found that the challenged statements
were inactionable opinion and that plaintiff recited bare
assertions of actual malice. A Motion to Dismiss was
granted and affirmed.

8
This pattern has resulted in legal scholars calling for
reform in what some call an “absolute immunity” defense
created by New York Times’ impossible legal hurdle – one
that effectively strips public officials of their right to protect
their reputation. Recognizing this problem, Justice Clarence
Thomas recently questioned the Constitutionality of the
“actual malice” doctrine, noting that New York Times and the
Court’s decisions extending it “were policy-drive decisions
masquerading as constitutional law.”5 The policy objections
of New York Times – protecting the free expression of ideas
by “carving out sufficient breathing space” – are no longer
relevant in this current age where “thanks to Google, such
defamation becomes near-permanent,”6 and where our
society has become “awash in an unprecedented number of
lies – some spewed by foreign enemies targeting our electoral
processes, others promoted by our leaders, and millions upon
millions spread by shadowy sources on the internet and,
especially, via social media.”7
5. McKee v. Cosby, 139 S.Ct.675, 676 (2019) (Thomas, J.,
concurring in the denial of certiorari).
6. Glenn Harlan Reynolds, Rethinking Libel for the TwentyFirst Century, 87 Tenn. L. Rev. 465, 478 (2020) (“Where once a
defamatory headline on a Tuesday was wrapped around fish by
Thursday, now it remains, evergreen, to be recalled whenever the
defamed’s name is searched.”); Logan, 81 OHIO ST. L.J. 759, 760
(“Chief Justice John Roberts recently warned that ‘[i]n our cage . .
. social media can instantly spread rumor and false information on
a grand scale,’ causing harm to our democracy. The internet has
become our ‘public square,’ something beyond the imagination of the
Supreme Court when it issued its groundbreaking 1964 decision in
New York Times Co. v. Sullivan.”) (citing John G. Roberts, Jr., 2019
Year-End Report on the Federal Judiciary 1, 2 (Dec. 2019), https://
www.supremecourt.gov/publicinfor/year-end/2019year-endreport.
pdf; Packingham v. North Carolina, 137 S.Ct. 1730, 1737 (2017)).
7. Logan, 81 Ohio St. L.J. 759,760-61 (citations omitted).

9
1.

To d ay ’s “ I n fo r m ation A g e ” Ca l l s fo r
Reconsideration of the Policy Justifications
Set Forth in New York Times

The world has changed since New York Times and
Gertz8. There exist strong policy reasons for the Court
to revisit New York Times and the need for the “actual
malice” standard. Advances in technology and the
dissemination of information have shifted the “public
square” to the internet. The advancement in technology
has created unlimited methods of near-permanent speech
to a global audience. “Sullivan and Gertz were concerned
with a world where only an exclusive few newspapers or
broadcasters could publish information broadly to the
public. Today, however, the media has expanded to include
web logs (‘blogs’), online news and opinion publications,
and message boards.” 9 The virtually unlimited channels
of speech created through advancements in technology
magnifies “[t]he potential damage inflicted by defamatory
Internet speech . . . as Internet publications are open to
a global audience and available for a longer, sometimes
permanent duration. Whereas only 394 copies of the Times
were circulated in Alabama at the time of Sullivan, access
to T imes articles is now solely limited by an individual’s
ability to use a computer or get to a newsstand.”10
This Court’s decision in New York Times and its
underlying policy addressed the most pressing problems
8. Gertz v. Welch, 418 U.S. 323 (1974).
9. Benjamin Barron, A Proposal to Rescue New York Times
v. Sullivan by Promoting a Responsible Press, 57 A m. U. L. Rev.
73, 89 (2007); Glenn Harlan Reynolds, Rethinking Libel for the
Twenty-First Century, 87 Tenn. L. Rev. 465, 480 (2020).
10. Barron, 57 A m. U. L. Rev. 73, 89.

10
in that era – the perceived need to protect the speech of
major media outlets from defamation lawsuits designed by
officials to stifle and deter reporting the events occurring
in the South during the Civil Rights movement.11 This
rationale must be reconsidered in light of technological
advances and nearly every citizen’s capability to spread
news as fast as they can Tweet or post to some other form
of social media. It begs the question; does speech today
require the same amount of “breathing space” as this
Court determined it did in 1964?
To this point, continuing the application of the New
York Times standard – which essentially immunizes the
dissemination of false facts – causes more problems than
it fixes in this “fake news” era. While a public plaintiff
may arguably invite scrutiny from traditional news outlets
“run by professional journalists are businesses that prize
their reputations for accuracy,” this Court could not have
envisioned a public plaintiff assuming the risk of being
“defamed by an anonymous blogger”12 or social media troll.
This Court in 1964 never imagined the phenomenon of
11. Logan, 81 Ohio St. L. J. at 763-64 (“Southern anger at
the media prompted another indirect strategy: filing libel lawsuits
against national media organizations. Plaintiffs sought millions
of dollars in damages from CBS News, the Saturday Evening
Post, and Ladies Home Journal, but the primary target was the
‘national paper of record,’ the New York Times.”) Justice Hugo
Black, in his concurring opinion in New York Times, called these
libel suits a “technique for harassing and punishing a free press,”
noting “[t]here is no reason to believe that there are not more such
[suits] lurking just around the corner for the Times or any other
newspaper which might dare to criticize public officials.” 376 U.S.
at 294-95 (Black, J., concurring).
12. Barron, 57 A m. U. L. Rev. 73, 89.

11
the reckless internet troll masquerading as a credible and
authoritative news source. Clearly, the internet blogger
or social media troll does not have an incentive to ensure
accuracy the way traditional news outlets do. This begs
another important question; does a public plaintiff today
assume the risk of false speech by internet trolls to justify
the heightened burden to prove actual malice?
Under the New York Times standard, a speaker has
no incentive to investigate and seek out corroborative facts
to a story. “The more a reporter investigates, the more
likely it is that the reporter will discover some information
that casts the veracity of the story into doubt, which would
increase the likelihood of liability. Simply failing to fully
investigate a story, however, constitutes mere negligence
for which the reporter cannot be held liable.”13 Under the
New York Times ‘actual malice’ rule, ignorance is bliss.
After he became a critique of the doctrine, Justice
White cogently stated:
The New York Times rule . . . countenances
two evils: first, the stream of information about
13. Id. at 85-86; see also Logan, 81 Ohio St. L.J. 759, 777-78
(“Because ‘actual malice’ is a subjective standard, New York Times
‘immunizes those who publish charges they believe to be true even
if the charges turn out to be false, [as well as those] who publish
charges the (subjectively) believe to be true even if a reasonable
person upon reasonable investigation would (objectively) not
believe those charges to be true.’ Sinply stated, this standard
‘incentivizes practices that increase the likelihood that the press
will publish injurious falsehoods.’”) (quoting Fredrick Schauer,
Slightly Guilty, 193 U. Chi. Legal F. 83, 93 (1993); Barron, 57
A m. U.L. Rev. 73, 75).

12
public officials and public affairs is polluted and
often remains polluted by false information;
and second, the reputation and professional life
of the defeated plaintiff may be destroyed by
falsehoods . . . In terms of the First Amendment
and reputation interests at stake, these seem
grossly perverse results.14
Public confusion fueled by “fake” or “polluted” news and
protected by the ‘actual malice’ heightened burden “is nolonger a democracy-enhancing doctrine and as a result it
should be replaced by an alternative that better balances
reputations with the need to deter false statements in our
public debate.”15
The Constitution, as written and framed by the
Founders, preserved our rights to our good names. New
York Times v. Sullivan, took those rights away. In a world
where it is literally true a lie travels around the world
before the truth gets out of bed, individuals like Pace,
need a remedy to hold liars accountable for launching the
lie in the first place. This is more important now than ever
before in our history.
B. The District Court Reversibly Erred in Determining
the C h a llenged S tat emen t s N o t C a pa ble of
D efa matory M ea ning a nd I nstea d C onstitute
Inactionable “Opinion”
In an action for defamation, the court’s duty is
to determine if the communication is capable of the
14. Dun & Bradstreet, Inc. v. Greenmoss Builders, Inc, 472
U.S. 749, 769 (1985) (White, J., concurring).
15. Logan, 81 Ohio St. L.J. 759, 781/

13
defamatory meaning ascribed to it by the plaintiff.
MacElree v. Philadelphia Newspapers, Inc., 674 A.2d
1050, 1053 (Pa. 1996). To make this determination, the
court is required to review the communication “in context”
and consider the effect it “is fairly calculated to produce,
the impression it would naturally engender, in the minds
of the average persons among whom it is intended to
circulate.” Corabi v. Curtis Pub. Co., 273 A.2d 899, 907
(Pa. 1971).
The PVP unequivocally dedicates its mission to
starting a dialogue about biases and bringing to light
Facebook posts that would undermine public confidence
and trust in policing. The necessary implications which
flow from Appellant’s inclusion within the database,
clearly stated in his Complaint, are that as a result of
his isolated comment on another officer’s post – again,
which did not include race, gender, sexual orientation, or
other bias – he has perpetuated racist or violent conduct
undermining pubic trust in policing as a whole , and casts
Plaintiff’s own fitness to serve the public into doubt. It is
well-established that a communication which imputes to
another conduct or a character which is incompatible with
the proper performance of his/her business is defamatory
per se. As stated by this Court in Pelagatti v. Cohen, 536
A.2d 1337, 1345 (Pa. Super. 2000):
[I]t is well-settled law that a communication
which ascribes to another conduct, character,
or a condition that would adversely affect his
fitness for the proper conduct of his business,
trade, or profession, is defamatory per se.
Accord Constantino v. University of Pittsburgh, 766 A.2d
1265, 1270 (Pa. Super. 2001); Brinich v. Jencka, 757 A.2d

14
388, 397 (Pa. Super. 2000); Maier v. Maretti, 671 A.2d 701,
704 (Pa. Super. 1995); Gordon v. Lancaster Osteopathic
Hosp. Ass’n., 489 A.2d 1364, 1368 (Pa. Super. 1985). See
also Restatement (Second) of Torts, § 573 (1977).
In Cosgrove Studio & Camera Shop, Inc. v. Pane, 182
A.2d 751, 752 (Pa. 1962), the Court reversed the entry of
judgment for the defendant where the plaintiff published
an ad offering a free roll of film for every roll brought in
for development and, the following day, its competitor
the defendant published an ad stating “WE WILL NOT
1. Inflate the prices of your developing to give you a new
roll free! 2. Print the blurred negatives to inflate the
price of your snapshots! 3. Hurry up the developing of
your valuable snapshots and ruin them! 4. Use inferior
chemicals and paper on your valuable snapshots!” The
Court concluded that the ad was defamatory because
it “clearly imputes to the person to whom it refers,16
characteristics and conduct which are incompatible with
the proper and lawful exercise of a business.” Cosgrove,
182 A.2d p. 753.
The defamatory fact may be implied, rather than
directly stated. McDermott v. Biddle, 674 A.2d 665 (Pa.
1996). In Weber v. Lancaster Newspapers, Inc. 878 A.2d
63 (Pa. Super. 2005), the Court held that a print headline
stating “Attorney named in abuse petition” was potentially
defamatory because it “conveys the false impression [i.e.,
implication] that [the attorney] was named as a defendant”
in the petition. Weber v. Lancaster Newspapers, Inc., 878
A.2d 63 (Pa. Super. 2005), appeal denied, 903 A.2d 539
16. The Court held the plaintiff was entitled to introduce
evidence that it was the business to which the ad referred.

15
(Pa. 2006) Consistent with its ruling in Weber, the Court
held that telling a job applicant said job “might have been
‘beyond her capabilities’ implies that [her] background or
ability is somehow deficient” and was therefore defamatory,
as it “could tend to undermine the community’s confidence
in her ability for potentially fallacious reasons.” Walker
v. Grand Cent. Sanitation, Inc., 634 A.2d 237, 241 (Pa.
Super. 1993). (Emphasis supplied.)
Such statements are not protected merely by labeling
them “opinion.” Milkovich v. Lorain Journal Co., 497 U.S.
1 (1990). In Milkovich, this Court rejected the notion that
there is “a wholesale defamation exemption for anything
that might be labeled ‘opinion,’” because that “ignores
the fact that expressions of ‘opinion’ may often imply an
assertion of objective fact.” Milkovich, 497 U.S p. 18.
Where a statement does so, liability may be imposed “if
those facts are incorrect or incomplete, or if [the maker’s/
author’s] assessment of them is erroneous,” as “the
statement may still imply a false assertion of fact.” Id.
(Emphasis supplied.)
Indeed, even prior to Milkovich, Courts held that
a so-called expression of opinion based on disclosed
facts may be actionable unless (a) the “disclosed facts
are correct” and (b) the communication does not imply
the existence of undisclosed defamatory facts. Braig
v. Field Communications, 456 A.2d 1366, 1372-73 (Pa.
Super. 1983). (Emphasis supplied.) In Braig, the court
found the Plaintiff entitled to relief after a prosecutor
made statements that “Judge Braig is not friend of the
police brutality unit” and “I don’t care who we sent in to
try that case, in my opinion, that case was going to get
blown out” because they could reasonably be understood

16
to imply defamatory falsehoods about Plaintiff. Braig,
456 A.2d p. 1369.
Apply ing the foregoing standards, Appellee’s
statements that the database comments and posts “about
race, religion, ethnicity and the acceptability of violent
policing - among other topics - inform officers’ on-thejob behaviors and choices” which “should be part of a
national dialogue about police” because “fairness, equal
treatment, and integrity are essential to the legitimacy
of policing,” and “we hope police departments will
investigate and address them immediately” support the
implication that the PVP website is fairly calculated to
impute criminality on the officers included. The PVP
website states that the content is “verified,” subject to
selection criterion, and after due consideration by a “team
of attorneys”, included because it was deemed problematic,
“could erode civilian trust and confidence in police” and
should be “investigate[d] and address[ed] immediately.”
These statements impugned Appellant’s fitness and
ability to serve and protect the citizens of Philadelphia
in his capacity as a Police Inspector. Such statements are
defamatory per se. Pelagatti; Constantino.
Framing a statement as an opinion to simply enjoy
constitutional protection while defaming others cannot
be tolerated. This Honorable Court must consider the
totality of circumstances surrounding the PVP database,
discrediting the tactful hedging language, and affording
due weight to the objectively defamatory message the
Defendants intended to deliver: a nationwide problem
in policing exists and Plaintiff’s comment “insightful
comment” warrants official investigation into his fitness
to perform his sworn duties.

17
Appellee’s argue “Plaintiff’s interpretation of the
PVP website is ‘explicitly refuted’ by the Disclaimer.”
(JA080) While disclaimers are not a bad practice, the nondefamatory character of a statement will rarely depend
solely on the presence or absence of one. Stanton v. Metro
Corp., 438 F.3d 119, 126 (1st Cir. 2006). Although the
position of an item can bear on the question of defamatory
import, courts have held that one cannot assume that
placing a disclaimer on the first page of an article itself
ensures that a reasonable reader will see it. Stanton at 13.
Instead, it must be examined in its totality in the context
in which it was uttered or published. Id. However, since
a reasonable reader may overlook he disclaimer or fail to
give it credence, it cannot negate the defamatory meaning
of the PVP Defendants’ statements.
A visitor to the PVP website is greeted by a page split
vertically: the left side of the page features a continuous
(and distracting) scroll of images from the database
depicting the most incriminating and offensive posts;
the right side of the page features a brief description of
the site stating “[t]he Plain View Project is a database of
posts and comments made by current and former police
officers” that “we believe [ ] undermine public trust and
confidence in our police” and “question whether these
online statements about race, religion, ethnicity and the
acceptability of violent policing—among other topics—
inform officers’ on-the-job behaviors and choices.”
(Emphases supplied.)
Significantly, the disclaimer occupies the space
between the “home” page described above, and the
database itself. Only after interest is piqued and
expectations set is a viewer expected to proceed with

18
caution and carefully read the disclaimer prompt prior
to entering the database. The (likely) perfunctory review
of the disclaimer fails to inform reasonable reader that
the posts are subject to “Multiple Meanings” which the
District Court heavily relies on in their analysis. See
District Court Opinion (JA 020-021)
Additionally, due to common web browser settings,
the disclaimer only appears the first time one visits the
PVP site. Thus, contrary to the District Court finding the
disclaimer “prominent and robust,” a visitor is expected
to recall the PVP’s feeble attempt reframing the purpose
of its site days, months, or even years after their first
visit. This is of course, assuming that the visitor read the
disclaimer to begin with.
Other courts have recognized “given the placement
of the disclaimer in [an] article and the nature of the
publication in general, a reasonable reader could fail
to notice it.” Stanton, 438 F. 3d at 128. In Stanton, the
defendants’ general interest publication ran an article,
“Fast Times at Silver Lake High: Teen Sex in the
Suburbs.” The plaintiff was one of five young people
pictured in a photograph accompanying the article, which
reports on teenagers in the Boston area becoming more
sexually promiscuous over the last decade. Id. at 123. A
disclaimer to the photograph and article “occupies the field
between the body of the story and the byline, making it
easy enough to overlook between the larger fonts of both.”
Ultimately, the court held despite the disclaimer that the
article was susceptible to defamatory meaning. Id. at 130.
The Appellees in their Motion to Dismiss erroneously
relied on Spilfogel v. Fox Broad. Co., 2009 U.S. Dist.

19
LEXIS 139784 (S.D. FL. 2009), a case about an episode
of COPS featuring disclaimers before and after the
episode. See Def. MTD (JA 079) However, this Court has
rejected the notion that there is “a wholesale defamation
exemption for anything that might be labeled ‘opinion’”
and explained that such a notion “ignore[s] the fact that
expressions of ‘opinion’ may often imply an assertion of
objective fact.” Milkovich, 497 U.S. 1, 18 (1990). Where a
statement does imply an assertion of fact, liability may be
imposed “if those facts are incorrect or incomplete, or if
[the maker’s/author’s] assessment of them is erroneous,” as
“the statement may still imply a false assertion of fact.” Id.
Assuming arguendo the disclaimer is carefully read
and comprehended by visitors, PVP still fails to disclose
the criterion it uses in selecting posts to publish. By
keeping that criterion secret, the database “opinions”
rely on undisclosed facts about their selection process, the
supporting basis for their “opinion”, and, more specifically,
the basis for Appellants inclusion. This is all while their
“About” and “Methodology” tabs project credibility to the
interpretations they ascribe to this database.
The District Court’s opinion relied on the disclaimer
and its acknowledgement that posts or comments could
be subject to multiple interpretations. However, just
because a disclaimer notes a post may be subject to
multiple interpretations, does not mean that each post is,
in fact, subject to multiple interpretations. The Appellant’s
innocuous, non-racist, non-violent, non-misogynistic, and
non-bigoted post is not reasonably subject to multiple
interpretations. (JA021) Thus, by virtue of including
Appellant in the database, Appellees are injecting a
reading into the post that would not have otherwise been

20
ascribed to it. The Appellees assessment of the facts
evidenced by their interpretation of Appellant’s comment
“Insightful point” is plainly incorrect.
C. A ppellant Has Sufficiently Pled Actual Malice17
Actual malice is established where the defendant made
the [false] statement with knowledge that it was false or
with reckless disregard of whether it was false or not.
Milkovich 497 U.S. at 14. “Reckless disregard” requires
a showing that the defendant either “in fact entertained
serious doubts as to the truth of [the] publication,” St.
Amant v. Thompson, 390 U.S. 727, 731 (1968), or had
a “high degree of awareness of … probable falsity[.]”
Garrison v. Louisiana, 379 U.S. 64, 74 (1964). This
subjective inquiry requires “sufficient evidence to permit
the conclusion that the defendant actually had a ‘high
degree of awareness of … probable falsity.” Harte-Hanks
Communications, Inc., 491 U.S. 657, 688 (1989) (quoting
Garrison v. Louisiana, 379 U.S. 64, 74 (1964)).
PVP’s own disclaimer states that it redacted the
identities of police officers whose comments or posts did
not promote violence, racism, etc. in furtherance of its
mission; the fact that PVP did not redact Appellant’s
identity speaks to the fact that PVP believed his comment
fit one of these categories.
T he T h i rd Ci rcu it obser ved t hat “object ive
circumstantial evidence can suffice to demonstrate actual
malice” and can “override defendants’ protestations of
17. It is not in dispute that as an inspector the Appellant is
a public official who must plead actual malice.

21
good faith and honest belief that the report was true.”
Schiavone Constr. Co. v. Time, Inc., 847 F.2d 1069, 1090
(3rd Cir. 1988) (citing St. Amant v. Thompson, 390 U.S. 727,
732 (1968)). A court may infer actual malice from objective
facts that provide evidence of “negligence, motive, and
intent such that an accumulation of the evidence and
appropriate inferences supports the existence of actual
malice.” Id. at 1090 n.35 (citations omitted). Actual malice
can be shown “[t]hrough the defendant’s own actions
or statements, the dubious nature of his sources, [and]
the inherent improbability of the story [among] other
circumstantial evidence[.]” Celle v. Filipino Reporter
Enterprises Inc., 209 F.3d 163, 183 (2d Cir. 2000) (quoting
Liberty Lobby, Inc. v. Dow Jones & Co., 838 F.2d 1287,
1293 (D.C. Cir. 1988)).
In the case at bar, Appellant maintains an important
position within the PPD – a position which requires
Appellant to advocate for discipline, suspension, and/
or termination of police officers when they violate
departmental policy – including, but not limited to,
officers who endorse and act in manners consistent with
prejudice and biases towards women, Muslims, and/or
other minorities. Appellee’s inclusion of Appellant in
the PVP database was calculated to serve their broad
motives and purpose: these public Facebook posts and
comments demonstrate that a “nationwide problem
in policing” pervades even the highest ranks of police
departments and renders them incapable of policing their
own. Appellee’s journalistic misconduct demonstrate the
reckless disregard and willful avoidance of truth. Given
his position and responsibilities within the PPD, it is
reasonable to surmise the Defendants overreached to
include Appellant in the database to create the impression

22
that a racist, bigoted, and/or misogynistic officer is tasked
with supervising and disciplining other racist, bigoted,
and/or misogynistic officers.
The forced construction of the PVP Defendants to
ascribe a meaning to Appellant’s comment that simply
does not exist is precisely the “calculated falsehoods”
which public officials must prove, and Appellant can prove
in this case. Garrison 379 U.S. at 74. For this reason,
Appellant has sufficiently pled actual malice.
XIV. CONCLUSION
For the reasons heretofore given, the writ of certiorari
should be granted.
				

Respectfully submitted,
James E. Beasley, Jr.
Counsel of Record
Louis F. Tumolo
The Beasley Firm, LLC
1125 Walnut Street
Philadelphia, PA 19107
(215) 592-1000
jim.beasley@beasleyfirm.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE THIRD
CIRCUIT, FILED APRIL 21, 2021
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 20-1308 & 20-1401
DF PACE, Esquire,
Appellant in No. 20-1308,
v.
EMILY BAKER-WHITE, Esquire; FEDERAL
COMMUNITY DEFENDER OFFICE FOR THE
EASTERN DISTRICT OF PENNSYLVANIA;
PLAINVIEW PROJECT; INJUSTICE WATCH,
Emily Baker-White; Plainview Project;
Injustice Watch,
Appellants in No. 20-1401.
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-19-cv-04827)
District Judge: Honorable Wendy Beetlestone
Submitted under Third Circuit LAR 34.1(a)
On September 25, 2020
Before: AMBRO, PORTER and ROTH,
Circuit Judges

2a
Appendix A
(Opinion filed March 15, 2021)
OPINION*
ROTH, Circuit Judge
D F Pace appeals the District Court’s dismissal of his
state-law tort action, alleging that Emily Baker-White, the
Plain View Project, and Injustice Watch (the PVP defendants)
published statements on the Plain View Project website that
implicitly defamed him. The District Court held that the
PVP defendants’ statements were nondefamatory opinions
and that Pace failed to plead actual malice. We will affirm.
I1
The Plain View Project is a website operated by the
PVP defendants. On the site’s homepage, they state, in
relevant part, that the website
is a database of public Facebook posts and
comments made by current and former police
officers from several jurisdictions across the
United States. We present these posts and
comments because we believe that they could
undermine public trust and confidence in our
police. In our view, people who are subject to
decisions made by law enforcement may fairly
* This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

1. We discuss the facts and proceedings only to the extent
necessary for resolution of this case.

3a
Appendix A
question whether these online statements about
race, religion, ethnicity and the acceptability of
violent policing—among other topics—inform
officers’ on-the-job behaviors and choices. 2
After viewing this prefatory text and a subsequent
“disclaimer,” 3 website users can view “screenshots” of
thousands of posts and comments searchable by city,
keyword, or an officer’s information. In the “Methodology”
section of the site, the PVP defendants state that they
“verified” that each post or comment on the site meets
their criteria for inclusion and was in fact made by a police
officer on a publicly available Facebook page.4
Pace has served in the Philadelphia Police Department
(PPD) for approximately eighteen years. He is currently
an Inspector and member of the PPD’s Board of Inquiry,
“responsible for taking appropriate action against other
members of the PPD when a departmental violation has
occurred.”5 On the website, the PVP defendants published
the following post by PPD Officer Anthony Pfettscher about
2. The Plain View Project, https://www.plainviewproject.org/
(last visited October 26, 2020).
3. The disclaimer apparently must be viewed the first time a
user visits the site. It is unclear whether a user’s browser settings
can enable them to avoid the disclaimer during subsequent visits
to the site. Because our ruling does not depend on the contents or
existence of the disclaimer, we need not address this issue.
4. Methodology, THE PLAIN VIEW PROJECT, https://www.
plainviewproject.org/about (last visited October 26, 2020).
5. App’x 042.

4a
Appendix A
the North Korean arrest of Otto Warmbier, an American
tourist. The arrest made international headlines in March
2016. Pfettscher’s post was accompanied by comments by
others, including Pace:

					

6

6. App’x 043. When Warmbier was released by the North
Koreans in 2017, he was in a vegetative state. He died 6 days later in a
hospital after his parents requested that his feeding tube be removed.

5a
Appendix A
On September 17, 2019, Pace brought this action
against the PVP defendants for defamation by implication
and false light.7 Pace does not allege that the comment
is itself defamatory or falsely attributed to him. Rather,
he alleges that the prefatory text on the PVP website’s
homepage “impl[ies] that the officers [whose comments are
included on the site] endorse and display violence, bigotry
and racism towards the citizens they have sworn to serve”
and are “unfit for the proper conduct of [their] profession.”8
In other words, the issue is not that the PVP defendants
republished his comment, but that they published it on
the PVP website. Pace further alleges that he “detests
. . . attitudes” that “denigrate[] persons on the basis of
race, color, religion, ethnicity, sex or sexual orientation.” 9
The District Court granted the PVP defendants’ Motion
to Dismiss, holding that (1) any implied statements
about Pace’s beliefs are non-actionable opinions, (2) any
defamatory meaning was negated by the disclaimer, and
(3) Pace failed to allege actual malice.
II
We exercise plenary review over the District Court’s
opinion.10 We will affirm it but only on the ground that Pace
7. Pennsylvania’s substantive law governs Pace’s claims. See
McCafferty v. Newsweek Media Grp., Ltd., 955 F.3d 352, 356 (3d
Cir. 2020).
8. App’x 044–45.
9. Id. at 036.
10. Remick v. Manfredy, 238 F.3d 248, 261 (3d Cir. 2001).

6a
Appendix A
has failed to allege that the PVP defendants acted with
actual malice, as Pace concedes that he must.11 In doing
so, we will assume, without deciding, that by including
Pace’s comment, “Insightful point,” on the PVP website,
the PVP defendants implied that Pace’s views “about
race, religion, ethnicity,” “the acceptability of violent
policing,” or “other topics” could “undermine public trust
and confidence in our police”12 and make him “unfit for
. . . his profession.”13 We will also assume, without deciding,
that that implication is false and defamatory and is not
an “opinion” under Pennsylvania law. Finally, we will
assume, without deciding, that that implication was not
negated by the website’s “disclaimer.” Even making these
assumptions in his favor, however, Pace has failed to allege
actual malice. Accordingly, his claims fail.
“‘Actual malice’ . . . does not connote ill will or improper
motivation. Rather, it requires that the [defendant] either
know that its [statement] was false or publish it with
‘reckless disregard’ for its truth.”14 A defendant acts with
reckless disregard if it “in fact entertained serious doubts

11. Because Pace failed to allege actual malice, we need not
address the other grounds for the District Court’s decision or the
PVP defendants’ cross appeal.
12. The Plain View Project, https://www.plainviewproject.
org/ (last visited October 26, 2020).
13. App’x 045.
14. McCafferty, 955 F.3d at 359 (quoting Am. Future Sys., Inc.
v. Better Bus. Bureau of E. Pa., 923 A.2d 389, 399 n.12 (Pa. 2007)).

7a
Appendix A
as to the truth of his publication.”15 At the pleading stage,
a public figure, like Pace, must allege facts to support an
inference of actual malice.16 Yet, Pace merely labels the
PVP defendants’ conduct as “malicious” and alleges that
they “had knowledge of, or acted in reckless disregard as
to the falsity of the matter [they] communicated.”17 These
conclusory allegations are insufficient.
Pace argues that his allegations are not conclusory
because two “objective” circumstances show that it is
“inherently improbable” that he holds beliefs “consistent
with the prejudice and biases the [PVP defendants]
ascribe to” him.18 Although a plaintiff may rely on objective
circumstances—including the “inherent improbability”
of a defendant’s statement19 —to show that the defendant
“seriously doubted” the truth of its statement, 20 Pace’s
allegations are insufficient to show that the PV P
15. St. Amant v. Thompson, 390 U.S. 727, 731 (1968).
16. McCafferty, 955 F.3d at 359; accord Michel v. NYP
Holdings, Inc., 816 F.3d 686, 702 (11th Cir. 2016); Biro v. Conde
Nast, 807 F.3d 541, 544–45 (2d Cir. 2015); Pippen v. NBCUniversal
Media, LLC, 734 F.3d 610, 614 (7th Cir. 2013); Mayfield v. Nat’l
Ass’n for Stock Car Auto Racing, Inc., 674 F.3d 369, 377 (4th Cir.
2012); Schatz v. Republican State Leadership Comm., 669 F.3d 50,
56 (1st Cir. 2012).
17. App’x 036, 050, 051, 052, 053.
18. Appellant’s Reply at 5.
19. See Celle v. Filipino Rep. Enter. Inc., 209 F.3d 163, 183 (2d
Cir. 2000) (internal citation and quotation marks omitted).
20. See McCafferty, 955 F.3d at 359.

8a
Appendix A
defendants “seriously doubted” that Pace held the beliefs
allegedly ascribed to him by the website’s prefatory text.
First, Pace argues that no “reasonable journalist”
could conclude that he held such beliefs based solely on his
comment; rather, the PVP defendants reached a “forced
construction” of a comment by a member of the Board of
Inquiry to “create the impression that . . . a fox is guarding
the hen house” at the PPD. 21 According to Pace, his
comment is subject to only “innocuous” and “non-violent”
interpretations. 22 We disagree. In the post, Pfettscher
“cracked up” about a dictatorial regime sentencing a
twenty-one-year-old American to fifteen years of hard
labor for attempting to steal a propaganda poster. He
then stated that the sentence should be an “eye opener”
for “spoiled and coddled youth” in “this weak PC country”
who “act like animals” and engage in conduct such as
“burn[ing] and step[ping] on” the American flag. Other
commenters stated that Warmbier was “lucky” that North
Korea “didn’t cut off his hands” and that America “would
be in good shape” if it “doled out” harsh penalties. Pace
then commented that Pfettscher’s “point” was “insightful.”
Although we express no opinion about how Pace’s comment
should be interpreted (let alone what he actually intended
it to mean), a journalist could interpret his comment
as expressing support for harsh criminal penalties in
response to protected speech, which might “undermine
public trust and confidence in” police. Thus, without more
information about Pace, it is not “inherently improbable”
21. Appellant’s Br. at 24-26.
22. Id. at 13.

9a
Appendix A
that the PVP defendants found that his comment fit the
description in the prefatory text. 23
Moreover, it is irrelevant whether a “reasonable”
journalist would publish this interpretation of the
comment without further investigating Pace’s intent.
“[T]he beliefs or actions of a reasonable person are
irrelevant.” 2 4 “[E]ven an extreme departure from
professional standards, without more, will not support a
finding of actual malice.” 25 Nor will an improper motive. 26
Unless the PVP defendants in fact seriously doubted that
their permissible interpretation of the comment were
true, 27 they could include the prefatory text and Pace’s
comment on the website without further investigation.
In these circumstances, the wording of Pace’s comment,
without more, does not create an inference that the PVP
defendants had such doubts.
23. See Schiavone Constr. Co. v. Time, Inc., 847 F.2d 1069,
1090 (3d Cir. 1988) (“Obviously, actual malice cannot be imputed
merely because the information turns out to be false. An erroneous
interpretation of the facts does not meet the standard.”).
24. Michel, 816 F.3d at 702–03.
25. McCafferty, 955 F.3d at 359; accord Lemelson v. Bloomberg
L.P., 903 F.3d 19, 24 (1st Cir. 2018) (“Actual malice is a ‘wholly
subjective’ standard. . . . [S]howing a departure from industry
standards, alone, is insufficient to allege actual malice, even if that
departure is ‘extreme.’” (citations omitted)).
26. See McCafferty, 955 F.3d at 360 (“And Newsweek’s desire
‘to increase its profits’ and sluggish sales does not make out actual
malice either.” (citation omitted)); Mayfield, 674 F.3d at 378.
27. McCafferty, 955 F.3d at 359–60; Pippen, 734 F.3d at 614;
Tucker v. Phila. Daily News, 848 A.2d 113, 135–36 (Pa. 2004).

10a
Appendix A
Second, Pace argues that the PVP defendants must
have had serious doubts about their interpretation of
his comment because Pace is “a high ranking member
of the PPD ‘with a previously outstanding personal and
professional reputation in the community he serves.’” 28
But he does not allege that the PVP Defendants had any
reason to know about that reputation. And Pace’s position
as a “high-ranking” member of the PPD does not support
an inference of actual malice. To the contrary, his position
in the PPD is why he must allege actual malice in the
first place.
Because Pace has not alleged facts supporting the
inference that the PVP defendants “seriously doubted”
the appropriateness of publishing his comment along with
the prefatory text on the PVP website, he has failed to
allege actual malice. Accordingly, his claims fail.
III
For the reasons set forth above, we will affirm the
judgment of the District Court, dismissing Pace’s claims
with prejudice.

28. Appellant’s Reply at 5 (quoting App’x 036).

11a
Appendix b — Appendix
opinionBof the united
states district court for the eastern
district of pennsylvania,
filed january 13, 2020
United States District Court for the
Eastern District of Pennsylvania
CIVIL ACTION NO. 19-4827
D. F. PACE, ESQUIRE,
Plaintiff,
v.
EMILY BAKER-WHITE, PLAINVIEW PROJECT,
AND INJUSTICE WATCH,
Defendants.
January 13, 2020, Decided
January 13, 2020, Filed
Opinion
In the summer of 2016, a team of attorneys in
Philadelphia learned that numerous local police officers
had posted content on Facebook that appeared to endorse
violence, racism and bigotry. In some of these posts,
officers commented that apprehended suspects—often
black men—“should be dead” or “should have more lumps
on his head.” In other Facebook conversations, officers
advocated shooting looters on sight and using cars to run

12a
Appendix B
over protestors. Numerous posts deemed Islam “a cult,
not a religion” and referred to Muslims as “savages” and
“goat-humpers.” And, in still others, officers appeared
to joke about beating and raping women. This discovery
inspired the creation of the Plain View Project (“the
PVP”), a research project that has identified thousands
of Facebook posts and comments by current and former
police officers.1 Defendants published these posts and
comments, including one by Plaintiff D.F. Pace, on the
PVP website.
Pace, an attorney and inspector within the Philadelphia
Police Department (“the PPD”), has sued Injustice Watch,
an investigative journalism non-profit which runs the
PVP, and Emily Baker-White, its former employee for
defamation-by-implication and for putting him in a false
light. 2 Plaintiff’s published comment—“Insightful point”
—is not the problem here. Plaintiff’s contention broadly
is that, when viewed in the context of the PVP’s prefatory
statements regarding their criteria for inclusion on the
website, Defendants’ publication of his name and comment
implied that he is an officer who endorses violence, racism,
and bigotry and who undermines public trust in the police
by acting on those biases. Defendants now move to dismiss
the Complaint pursuant to Federal Rule of Civil Procedure
1. This description is taken verbatim from the “About” tab of
the PVP website.
2. Although Plaintiff has sued the “Plain View Project”,
according to Defendants it is not a separate legal entity. It is the
name of the website run by Defendant Injustice Watch and on which
the post and comments were published.

13a
Appendix B
12(b)(6). For the reasons set forth below, their motion will
be granted.
I.

FACTS3

The PVP is a website run by Defendant Injustice
Watch which compiled comments posted publicly by police
officers on their personal Facebook pages. As set forth
above, the “About” tab of the site explains how the PVP
came about.4 Having described the posts and comments
published on the website, verbiage on the “About” tab
continues: “We believe that these statements could
erode civilian trust and confidence in police, and we hope
police departments will investigate and address them
immediately.”
The methodology used to compile the posts is also
described in detail on the PVP website. In the fall of 2017,
Defendants obtained published rosters of police officers
employed by eight jurisdictions across the United States.
They then searched Facebook for the officers’ names and
made a list of Facebook pages or profiles that appeared to
3. These facts are drawn from the Complaint and, for the
purposes of the motion to dismiss, will be taken as true. See Kost v.
Kozakiewicz, 1 F.3d 176, 183 (3d Cir. 1993).
4. The parties agree that the statements of which Plaintiff
complains are found on the PVP website and that the website is
relied upon in the Complaint. Accordingly, the relevant pages of the
website will be considered in deciding this motion to dismiss. See
In re Burlington Coat Factory Sec. Litig., 114 F.3d 1410, 1426 (3d
Cir. 1997) (“a document integral to or explicitly relied upon in the
complaint may be considered”) (internal quotations omitted).

14a
Appendix B
belong to them. Next, they searched within each profile for
verification that the user was in fact the officer named on
the rosters and to confirm that the profile was maintained
by an identified police officer. Some users reported
specific police departments as their employers; others
posted pictures of themselves in uniform. Some discussed
making arrests or performing other police duties. When
a PVP researcher obtained verification and confirmation
for a profile, the researcher captured the screen with the
verifying information and added it to the PVP’s files.
Having compiled a list of more than 3,500 verified
accounts, Defendants then reviewed each public post or
comment to assess whether they “could undermine public
trust and confidence in police.” Ultimately, they included
5,000 posts and comments which they believed “meet
this criterion.” Screenshots of each of these posts and
comments were placed on the PVP website, the homepage
of which states:
We present these posts and comments because
we believe that they could undermine public
trust and confidence in our police. In our view,
people who are subject to decisions made by
law enforcement may fairly question whether
these online statements about race, religion,
ethnicity and the acceptability of violent
policing—among other topics—inform officers’
on-the-job behaviors and choices.
To be clear, our concern is not whether these
posts and comments are protected by the First

15a
Appendix B
Amendment. Rather, we believe that because
fairness, equal treatment, and integrity are
essential to the legitimacy of policing, these
posts and comments should be part of a national
dialogue about police.
Visitors to the site can find particular posts and
comments through a searchable database organized by
officer name, rank, badge number, and jurisdiction. But,
before conducting a search, they are presented with a
disclaimer to which they must click “I Understand,” or else
they cannot proceed. The disclaimer, which is prominently
displayed—centered in the middle of and blocking a
significant portion of the viewer’s screen—contains the
following language:
The Facebook posts and comments in this
database concern a variety of topics and
express a variety of viewpoints, many of them
controversial. These posts were selected
because the viewpoints expressed could be
relevant to important public issues, such as
police practices, public safety, and the fair
administration of the law. The posts and
comments are open to various interpretations.
We do not know what a poster meant when he
or she typed them; we only know that when we
saw them, they concerned us. We have shared
these posts because we believe they should
start a conversation, not because we believe
they should end one.

16a
Appendix B
...
Inclusion of a particular post or comment in
this database is not intended to suggest that
the particular poster or commenter shares any
particular belief or viewpoint with any other
poster or commenters in the database. . . .
The disclaimer also explains that the names and faces
of non-officers were redacted from the posts as well as the
names and faces of officers in comment threads “where
their comments could not reasonably affect public trust in
policing.” Once a visitor has clicked on the “I Understand”
link, they are free to search the database and, at least if
the search is made on the same computer, the disclaimer
does not come up again.
Defendants included in the database Plaintiff ’s
comment posted on Facebook in response to another
police officer’s post. More specifically, on March 16, 2016,
Philadelphia police officer Anthony Pfettscher created a
Facebook post discussing the arrest of American Otto
Warmbier in North Korea, an international news story
at the time. 5 Pfettscher wrote: “I’m cracking up at that
America college student that [sic] went to North Korea
and tried to steal a poster. He is crying and pleading
like a little baby girl because he was just sentenced to
15 years hard labor. Although my heart breaks for his
family, it’s an eye opener to how spoiled and coddled our
5. Figure 1, presented at the end of this opinion, is a screenshot
of Plaintiff’s comment as it appears on the PVP website.

17a
Appendix B
youth of today are here in this weak PC country. Yet they
act like animals and burn and step on our Flag that [sic]
so many of our children died for defending our rights
and our country. #SeeYouIn15Years #WakeUpAmerica
#AskW hatYouCanDoForYOURcountry.” The PV P
website includes six comments to the post, including
Plaintiff’s, which reads, “Insightful point.”6 Three of the
names of the commenters were redacted, three were not.
Plaintiff’s name was one of the ones that was not.
Plaintiff claims that the inclusion of his comment
on the PVP website defamed him and put him in a false
light. At oral argument on this motion, upon being asked
to specify what exact statements formed the premise of
his lawsuit, Plaintiff stated that it was the inclusion of
his words “Insightful point” in the context of the PVP’s
own description of the project on the homepage and the
“About” page, as well as statements made in the disclaimer
language, that—by implication—defamed and put him in
a false light. More specifically, he argues that the website
as a whole suggests he belongs “in a set of current and
former police officers who endorse violence, racism and
bigotry and act[] in manners consistent with these biases
in their official capacity”; that he endorses violence, racism
6. Plaintiff’s Facebook comment of “Insightful point” could
be read to be referring to any number of Pfettscher’s statements,
i.e. Otto Warmbier (“a little baby girl”); America’s youth (“spoiled,”
“coddled,” “like animals” who disrespect the flag); America (“weak”
and “PC”). Or the comment could be suggesting that the use by the
posting officer of any or all of the three hashtags—#SeeYouIn15Years
#WakeUpAmerica #AskWhatYouCanDoForYOURcountry—was
insightful.

18a
Appendix B
and bigotry; that he acts in a manner that undermines
public trust in the police; that he is not carrying out his
oath of office with integrity; and that he does not treat
people equally.7
II. 	LEGAL STANDARDS
On a motion to dismiss made pursuant to Federal
Rule of Civil Procedure 12(b)(6), factual allegations are
scrutinized to determine if the allegations and inferences
proposed from those allegations are plausible. See Ashcroft
v. Iqbal, 556 U.S. 662, 683, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009). “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’”
See id. at 678 (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
The Court is required to “disregard rote recitals of the
elements of a cause of action, legal conclusions, and mere
conclusory statements.” James v. City of Wilkes-Barre,
700 F.3d 675, 679 (3d Cir. 2012). The relevant question is
not whether the claimant “will ultimately prevail . . . but
whether [the] complaint [is] sufficient to cross the federal
court’s threshold.” Skinner v. Switzer, 562 U.S. 521, 531,
131 S. Ct. 1289, 179 L. Ed. 2d 233 (2011).
7. “Pennsylvania courts apply the same analysis to both
defamation and false light.” Hill v. Cosby, 665 F. App’x 169, 177 (3d
Cir. 2016) (citations omitted); see also Fraternal Order of Police
Phila. Lodge No. 5 v. The Crucifucks, 1996 U.S. Dist. LEXIS 10897,
1996 WL 426709, at *4 (E.D. Pa. July 29, 1996). Defendants raise
the same arguments for the false light claims as for the defamation
claims, and they will therefore be analyzed together.

19a
Appendix B
III. ANALYSIS8
Defendants argue that Plaintiff’s claims must be
dismissed because: they are barred by the Communications
Decency Act; the inclusion of Plaintiff’s comment on the
PVP website is not capable of defamatory meaning;
Plaintiff’s claims are based on Defendants’ opinions
and therefore are not actionable as a matter of law; and,
Plaintiff has failed to plead actual malice.
A. 	Communications Decency Act
Defendants assert they are immune from this lawsuit
under Section 230 of the Communications Decency Act
(“the CDA” or “the Act”), 47 U.S.C. § 230,9 which bars
“lawsuits seeking to hold a service provider liable for its
exercise of a publisher’s traditional editorial functions—
such as deciding whether to publish, withdraw, postpone,
or alter content.” Zeran v. America Online, Inc., 129
F.3d 327, 330 (4th Cir. 1997). Section 230(c)(1) specifically
provides that: “No provider or user of an interactive
computer shall be treated as the publisher or speaker of
8. Federal courts sitting in diversity must apply the substantive
law of the forum state. See Erie R.R. Co. v. Tompkins, 304 U.S.
64, 58 S. Ct. 817, 82 L. Ed. 1188 (1938). Pennsylvania law therefore
governs this case.
9. There is some dispute as to whether Section 230 is an
immunity or not. For example, the Seventh Circuit, reads “§ 230(c)
(1) as a definitional clause rather than as an immunity from liability.”
Doe v. GTE Corp., 347 F.3d 655, 660 (7th Cir. 2003). The Third Circuit
has determined that it is an immunity. See Green v. America Online,
318 F.3d 465, 470 (3d Cir. 2003).

20a
Appendix B
any information provided by another information content
provider.” 47 U.S.C. § 230(c)(1).10 The term “interactive
computer service” is defined in relevant part as “any
information service, system, or access software provider
that provides or enables computer access by multiple
users to a computer server. . . . “ Id. at § 230(f)(2). The
term “information content provider” means “any person
or entity that is responsible, in whole or in part, for the
creation or development of information provided through
the Internet or any other interactive computer service.”
Id. at § 230(f)(3). Thus, CDA immunity applies where:
(1) the defendant is a user or provider of an “interactive
computer service”; (2) the asserted claim seeks to treat the
defendant as publisher of the challenged communication;
and (3) the challenged communication is “information
provided by another information content provider.” Dimeo
v. Max, 433 F. Supp.2d 523, 529 (E.D. Pa. 2006), aff’d, 248
F. App’x 280 (3d Cir. 2007).
The battle here is over the third element—whether
the challenged communications are “information provided
by another information content provider.” While it is
uncontroverted that Plaintiff wrote the words “Insightful
point,” the parties diverge as to how the prefatory
language included by Defendants on the PVP website
should inform the Section 230 analysis.
10. The CDA’s preemption clause establishes that Section 230(c)
(1) overrides traditional treatment of publishers under statutory and
common law. “No cause of action may be brought and no liability may
be imposed under any State or local law that is inconsistent with this
section.” 47 U.S.C. § 230(e)(3).

21a
Appendix B
Defendants argue that because they were not the
author of the words “Insightful point” (Pace was), and
because the publication of someone else’s content even
if the publisher selected and edited the content does not
transform such publisher into the creator or developer of
the content, i.e. into an information content provider, their
decision to publish Pace’s words is protected by Section
230. And, in support of this proposition, they cite to a long
line of cases. See Obado v. Magedson, 612 F. App’x 90, 93
(3d Cir. 2015); Carafano v. Metrosplash.com, Inc., 339
F.3d 1119, 1120-24 (9th Cir. 2003); Ben Ezra, Weinstein
& Co. v. America Online, Inc., 206 F.3d 980, 985 (10th
Cir. 2000); DiMeo, 433 F. Supp.2d at 530; Blumenthal v.
Drudge, 992 F. Supp. 44, 49-53 (D.D.C. 1998).
Plaintiff, to the contrary, maintains that this matter is
different from the run-of-the-mill Section 230 case. Here,
he argues, Defendants were both service and content
providers in that they did much more than simply package
and publish his words: Rather, they published them with
prefatory content they created which necessarily informed
readers’ understanding of his words. In support of this
position, he cites to Fair Housing Council v. Roommates.
com, LLC, in which the Ninth Circuit found that “[a]
website operator can be both a service provider and a
content provider: If it passively displays content that is
created entirely by third parties, then it is only a service
provider with respect to that content. But as to content
that it creates itself, or is responsible, in whole or in part
for creating or developing, the website is also a content
provider. Thus, a website may be immune from liability for
some of the content it displays to the public but be subject

22a
Appendix B
to liability for other content.” 521 F.3d 1157, 1162-63 (9th
Cir. 2008) (en banc) (internal quotations omitted).
Distilled to its essence, Plaintiff’s argument is that
because Defendants contextualized his comment with
content of their own—thus by implication suggesting
that he endorsed violence, racism, and bigotry and acted
in a manner consistent with those biases in carrying out
his duties as a police officer—Defendants cannot find
protection (at least on the facts alleged here) under the
aegis of Section 230.
Certainly, while courts construe Section 230 broadly,
see Nemet Chevrolet, Ltd. v. Consumeraffairs.com, Inc.,
591 F.3d 250, 257 (4th Cir. 2009) (collecting cases), the
immunity it bestows is not unlimited. Section 230 cases
exist along a continuum, with “internet service providers”
being immunized while “content providers” are not. Along
that continuum are various levels of editorial control,
ranging from merely hosting, curating, or positioning
content; through editing, to framing, and creating
content. The question here is where along that continuum
Defendants’ commentary lie.
One end of the continuum is populated by cases in
which an interactive computer provider merely hosts
or republishes defamatory content. In such cases, the
provider is protected by Section 230. See Cubby, Inc. v.
Compuserve, 776 F. Supp. 135, 137-40 (S.D.N.Y. 1991)
(immunizing webpage known as “Rumorville” for being
merely an electronic library with “no more editorial
control over . . . a publication than does a public library,

23a
Appendix B
book store, or newsstand”). Most Section 230 cases fall into
this category. See, e.g., Green, 318 F.3d at 471 (immunizing
America Online from liability for defamatory statements
John Does made in chatrooms); Obado, 612 F. App’x at
93 (immunizing defendants, including Yahoo!, Inc. and
Google, Inc., where the “allegedly actionable content
originated from” two bloggers and defendants merely
reposted); Zeran, 129 F.3d at 331-32 (immunizing America
Online from liability for anonymous Internet poster who
created fake ads about plaintiff in online forum); Chicago
Lawyers’ Comm. v. Craigslist, Inc., 519 F.3d 666, 668 (7th
Cir. 2008) (immunizing Craigslist from liability for hosting
offensive and racist housing ads); Carafano, 339 F.3d at
1120-24 (immunizing online dating website from claim over
allegedly false content on a user’s dating profile because
“Matchmaker did not play a significant role in creating,
developing or ‘transforming’ the relevant information”);
Novins v. Cannon, 2010 U.S. Dist. LEXIS 41147, 2010 WL
1688695, at *2 (D.N.J. Apr. 27, 2010) (immunizing website
against claim for republishing allegedly defamatory
content); Mitan v. Neumann & Assocs., 2010 U.S. Dist.
LEXIS 121568, 2010 WL 4782771, at *4-*5 (D.N.J. Nov.
17, 2010) (immunizing email alert provider for same).
Further along the continuum are those cases which
feature defendants curating information, including
selecting what gets posted or excluded. For example, in
Reit v. Yelp! Inc., the court immunized Yelp! against a
dentist’s defamation claims, where the site had selectively
removed positive reviews of his practice but left negative
ones. See 29 Misc. 3d 713, 907 N.Y.S.2d 411, 412-13 (N.Y.
Sup. Ct. 2010). The court found that “Yelp’s selection of

24a
Appendix B
the posts it maintained on Yelp.com was the selection of
material for publication, an action ‘quintessentially related
to a publisher’s role.’” Id. at 414 (citing Green, 318 F.3d
at 471).
Still other cases address positioning or increasing
the prominence of allegedly defamatory content. The
court in Asia Economic Institute v. Xcentric Ventures,
LLC held that Section 230 immunity applied where the
defendant added indexing tags to increase the prominence
of web pages in Google searches. 2011 U.S. Dist. LEXIS
145380, 2011 WL 2469822, at *6 (C.D. Cal. May 4, 2011).
“[I]ncreasing the visibility of a statement is not
tantamount to altering its message . . . . At best, increasing
the visibility of a website in internet searches amounts
to ‘enhancement by implication,’ which is insufficient to
remove Defendants from the ambit of the CDA. Absent a
changing of the disputed reports’ substantive content that
is visible to consumers, liability cannot be found.” Id.; see
also Small Justice LLC v. Xcentric Ventures, LLC, 2014
U.S. Dist. LEXIS 38602, 2014 WL 1214828, at *7-*8 (D.
Mass. Mar. 24, 2014) (“[M]erely endeavoring to increase
the prominence of Xcentric’s site among Google’s search
results does not make Xcentric an information content
provider under the CDA.”).
In some cases, defendants engage in editing or make
editorial judgments, which triggers arguments about
what constitutes content editing versus content creation.
In Dimeo, the defendant ran a website with message
boards on which third parties posted allegedly defamatory
comments about the plaintiff. The defendant “[did] not

25a
Appendix B
dispute that he select[ed], remove[d], and alter[ed] posts
on the message boards,” and the plaintiff argued that in
doing so, the defendant developed defamatory content.
433 F. Supp.2d at 527. Nevertheless, the court held that
“development of information must mean something more
than merely editing portions of [content] and selecting
material for publication.” Id. at 530 (internal quotations
omitted). In Blumenthal, another district court found that
interactive service providers are not liable for content
prepared by others—even if the provider solicits that
content and retains some control over it. 992 F. Supp.
at 52. A gossip columnist had entered into a written
licensing agreement with America Online, which made
his column available to all of America Online’s members
for a year. The plaintiff argued that because America
Online paid the defendant $3,000 a month to create the
allegedly defamatory content and reserved the right in
its agreement to remove content or require reasonable
changes, it therefore exercised editorial control and
should not be immunized by the CDA. Id. at 51. The court
disagreed, holding that while “it would seem only fair” to
make America Online liable for the defendant’s allegedly
defamatory statements, “Congress has made a different
policy choice by providing immunity even where the
interactive service provider has an active, even aggressive
role in making available content prepared by others.” Id.
at 51-52.
Other cases involve defendants who added their own
commentary to third-party statements, but the plaintiffs
only alleged the third-party statements were defamatory,
not the defendants’ commentary. See Jones v. Dirty World

26a
Appendix B
Entm’t Recordings, LLC, 755 F.3d 398, 416 (6th Cir. 2014)
(granting Section 230 immunity to gossip website where
it reposted allegedly defamatory third-party statements
and plaintiff “did not allege that [defendant’s] comments
were defamatory”); Marfione v. Kai U.S.A., Ltd., 2018
U.S. Dist. LEXIS 51066, 2018 WL 1519042, at *6-*8
(W.D. Pa. Mar. 28, 2018) (granting Section 230 immunity
where the action was “not [for] any statements made by
[defendants] on the [Instagram] posts themselves” and
the allegations about the defendants contributing to the
allegedly defamatory article were insufficiently pled);
Shiamili v. Real Estate Group of New York, Inc., 17 N.Y.3d
281, 952 N.E.2d 1011, 1019, 929 N.Y.S.2d 19 (N.Y. June 14,
2011) (granting Section 230 immunity where defendants
added a headline to objectionable third-party posts, but
defendants’ additions were not alleged to be defamatory).
At the far end of the continuum, content creators and
developers are not entitled to Section 230 immunity. See
Roommates, 521 F.3d at 1166; see also Huon v. Denton,
841 F.3d 733, 742 (7th Cir. 2016); Fed. Trade Comm’n
v. Accusearch Inc., 570 F.3d 1187, 1199 (10th Cir. 2009).
In Roommates, the Ninth Circuit en banc declined
Roommates.com immunity where the roommate-matching
website had solicited user preferences and provided
selective content based on those choices. See 521 F.3d at
1166. The website required subscribers to answer certain
questions and supplied a limited set of pre-populated
answers, including about the subscriber’s sex, family
status, and sexual orientation. Id. at 1161. The website
then assembled the answers into a profile page, which
made the website “much more than a passive transmitter”

27a
Appendix B
and resulted in a “collaborative effort between Roommate
and the subscriber” and, therefore, made Roommates.
com ineligible for Section 230 immunity. Id. at 1166-67.
In its analysis, the Ninth Circuit set out a test, which
has been adopted by other Circuits, for analyzing a
defendant’s “material contribution” to the creation or
development of defamatory content. The court drew a
“crucial distinction between, on the one hand, taking
actions (traditional to publishers) that are necessary to the
display of unwelcome and actionable content and, on the
other hand, responsibility for what makes the displayed
content illegal or objectionable.” Jones, 755 F.3d at 414;
see also Roommates, 521 F.3d at 1172 (providing “neutral
tools” that a third-party used to create offensive content
is not “development” under Section 230); Klayman v.
Zuckerberg, 753 F.3d 1354, 1358, 410 U.S. App. D.C. 187
(D.C. Cir. 2014) (same).
In Huon, the Seventh Circuit found the Roommates
line had been crossed where Gawker, an online tabloid
operator, allowed its employees to author comments on the
Gawker site about a person who had been acquitted of a
criminal sexual assault in order to drive online traffic to
its article about the acquittee. 841 F.3d at 742. The court
found that the added comments by Gawker employees
made Gawker a “content provider,” and thus the site was
not entitled to CDA protection. Id. at 743.
This case does not fall neatly into any of the
aforementioned categories along the continuum. It presents
the reverse of the scenarios in Jones and Marfione. There,
the plaintiffs sought to hold the defendants liable for

28a
Appendix B
reposting allegedly defamatory third-party statements—
not for commentary that the defendants made regarding
those statements. Here, by contrast, Plaintiff is seeking
to hold Defendants liable for what the Defendants’ own
words—when read in conjunction with a non-defamatory
statement he made on Facebook—imply about him. The
third-party statement here is the Plaintiff’s Facebook
comment which is not, by itself, defamatory. Give the
distinctive nature of this case, the Court returns to the
text of the statute to analyze the facts here.
The CDA states: “No provider or user of an interactive
computer shall be treated as the publisher or speaker of
any information provided by another information content
provider.” 47 U.S.C. § 230(c)(1). Thus, an information
provider may claim Section 230 immunity only with
respect to information provided by a content provider
other than itself. Accusearch, 570 F.3d at 1196. However,
if an entity is “responsible, in whole or in part, for the
creation or development of information” that forms the
subject matter of the lawsuit, it is itself a content provider
and is not protected. 47 U.S.C. § 230(f)(3).
The key terms in Section 230(f)(3) are not defined in
the CDA. Thus, they must be construed “in accordance
with [their] ordinary meaning,” Sebelius v. Cloer, 569 U.S.
369, 376, 133 S. Ct. 1886, 185 L. Ed. 2d 1003 (2013), as
determined by dictionary definitions as well as reference
to “the whole statutory text, considering the purpose and
context of the statute, and consulting any precedents or
authorities that inform the analysis.” See United States
v. Geiser, 527 F.3d 288, 294 (3d Cir. 2008) (citing Dolan v.

29a
Appendix B
U.S. Postal Serv., 546 U.S. 481, 486, 126 S. Ct. 1252, 163
L. Ed. 2d 1079 (2006)).
“A key limitation in Section 230 . . . is that immunity
only applies when the information that forms the basis
for the state law claim has been provided by ‘another
information content provider.’ . . . Thus, an interactive
computer service provider remains liable for its own
speech.” Universal Comm. Sys., Inc. v. Lycos, Inc., 478
F.3d 413, 419 (1st Cir. 2007); see also Blumenthal, 992
F. Supp. at 50 (recognizing that Section 230 would not
immunize a defendant with respect to any information
it developed or created “entirely by itself”); Huon,
841 F.3d at 742 (noting that a company is liable for
“creating and posting . . . a defamatory statement in
a forum that company maintains”). Here, although
Defendants published Plaintiff’s words on the PVP, they
readily acknowledge that they provided the words on
the introductory pages of the PVP website—a framing
narrative through the website’s homepage, disclaimer,
and “About” tab. Defendants here do not deny that they
authored these words. Instead they argue that their
selection of which posts to publish on the website does not
equate to the “creation” of these posts.
But, this lawsuit does not arise from the selection
of Plaintiff’s comments to publish on the PVP website.
It is premised on the inclusion of his and other officer’s
comments and posts on the website as prefaced by
statements explaining why those posts and comments
were included. Defendant’s citations in support of their
position are, accordingly, inapposite. In adding the

30a
Appendix B
framing narrative, Defendants did much more than merely
“packaging and contextualizing[,]” structuring a website
layout, increasing content’s prominence, or selecting what
to publish. See Green, 318 F.3d at 471; Obado, 613 F. App’x
at 93; Nemet, 591 F.3d at 257-58; Small Justice, 2014 U.S.
Dist. LEXIS 38602, 2014 WL 1214828, at *7. Nor does
the content Defendants added constitute mere “editorial
parameters” or selection criteria. Evans v. HewlettPackard Co., 2013 U.S. Dist. LEXIS 146989, 2013 WL
5594717, at *4 (N.D. Cal. Oct. 10, 2013). Unlike in Jones, 755
F.3d at 416, where the defendant’s added commentary was
not itself tortious and did not contribute to the allegedly
defamatory nature of the third-party statements, here it is
Defendants’ added commentary that is being challenged.
Dictionary definitions of the word “creation” lead to the
conclusion that the prefatory commentary was “created”
by the Defendants. The word has many meanings, but
as relevant here, The Oxford English Dictionary defines
it is as “[a]n original production of human intelligence,
power, skill or art,” and “[t]he action or process of bringing
something into existence from nothing, . . . the fact of being
so created.” See Oxford English Dictionary Online, www.
oed.com/view/Entry/44061 (last visited Jan. 10, 2020). The
Merriam-Webster Dictionary defines it as “something that
is created.” See The Merriam-Webster Dictionary, https://
www.merriam-webster.com/dictionary/create (last visited
Jan. 10, 2020). Here the words Defendants included on the
PVP website were original, having had no existence prior
to their being authored by Defendants and, as such, they
were created by Defendants.

31a
Appendix B
The fact that Plaintiff’s claims necessarily involve
evaluating his statement in the context of the statements
made by Defendants does not undermine this conclusion.
Section 230 does not only cover the creation of content that
is created in its entirety by a party, it also covers those
who are responsible “in part” for the creation of content.
Accusearch, 570 F.3d at 1197 (citing Lycos, 478 F.3d at 419).
“Accordingly, there may be several information content
providers with respect to a single item of information
(each being ‘responsible,’ at least ‘in part,’ for its ‘creation
or development’).” Id. at 1187; see also Blumenthal, 992 F.
Supp. at 50 (“Section 230 does not preclude joint liability
for the joint development of content”). Here, Plaintiff’s
words—“Insightful point”—are not in and of themselves
defamatory. The defamatory implication arises, according
to Plaintiff, from its framing by the introductory text
created by Defendants. One could conclude from that
Defendants created that content “in whole.” Even so, to
extent that one could conclude that, absent Plaintiff’s
words, there could be no defamation by implication, and
that as such Defendants were not the sole author of the
allegedly defamatory statements, they nevertheless are
responsible for it in part.
In focusing on whether Defendants are “responsible”
for the framing content on the PVP website, dictionary
definitions once again lead to the conclusion that they
are. To be responsible for a harm is to be “accountable
for one’s actions” or to be “the cause or originator of
something; deserving of credit or blame for something.”
See Oxford English Dictionary Online, www.oed.com/
view/Entry/163863 (last visited Jan. 8, 2020). Thus, to be

32a
Appendix B
responsible for offensive content, “one must be more than
a neutral conduit.” Accusearch, 570 F.3d at 1199. “That is,
one is not ‘responsible’ for the development of offensive
content if one’s conduct was neutral with respect to the
offensiveness of the content (as would be the case with the
typical Internet bulletin board). We would not ordinarily
say that one who builds a highway is ‘responsible’ for the
use of that highway by a fleeing bank robber, even though
the culprit’s escape was facilitated by the availability of the
highway.” Id. Thus, “a service provider is ‘responsible’ for
the development of offensive content only if it in some way
specifically encourages development of what is offensive
about the content.” Id. Such a construction of the term
“responsible”—requiring more than neutral conduct or
the mere providing of a platform—satisfies the CDA’s
purpose, which is to encourage the flow of information
online by protecting Internet services from liability when
third-parties use the services to post harmful content. See
47 U.S.C. § 230(a)-(c).
Here, the PVP website was not a “typical Internet
bulletin board[,]” neutrally facilitating the sharing of
harmful content. See Accusearch, 570 F.3d at 1199. It was
“much more than a passive transmitter.” See Roommates,
521 F.3d at 1166. Defendants created the introductory
narrative on the PVP website thereby making a material
contribution to the creation of the allegedly defamatory
content, and are therefore “responsible . . . for the creation
or development of information” at the core of this lawsuit.
See 47 U.S.C. § 230(f)(3). Accordingly, they are not entitled
to Section 230 immunity.

33a
Appendix B
B. 	Defamation
Because Defendants are not protected by Section
230 of the CDA, the Court turns to evaluating Plaintiff’s
defamation claims. In Pennsylvania, the plaintiff in
a defamation action bears the burden of proving: (1)
the defamatory character of the communication; (2)
its publication by the defendant; (3) its application to
the plaintiff; (4) the understanding by the recipient of
its defamatory meaning; (5) the understanding by the
recipient of it as intended to be applied to the plaintiff; (6)
special harm resulting to the plaintiff from its publication;
and (7) abuse of a conditionally privileged occasion. 42 Pa.
C.S.A. § 8343(a).
In addition, in a suit alleging the defamation of a public
official, the First Amendment requires the plaintiff to
establish that in publishing the statement the defendant
acted with “actual malice—that is, with the knowledge
that it was false or with reckless disregard of whether
it was false or not.” New York Times Co. v. Sullivan, 376
U.S. 254, 279-80, 84 S. Ct. 710, 11 L. Ed. 2d 686 (1964);
see also Bartlett v. Bradford Publ’g, Inc., 2005 PA Super
350, 885 A.2d 562 (Pa. Super. 2005). The parties agree
that Plaintiff is a public official who, as such, must plead
and prove actual malice.11 Id. at 567; Stickney v. Chester
Co. Comms., Ltd., 361 Pa. Super. 166, 522 A.2d 66, 69 (Pa.
Super. 1987).
11. During his eighteen years at the PPD, Plaintiff has served
as a patrol officer, sergeant, and lieutenant, and he now oversees the
PPD Police Board of Inquiry, which is responsible for disciplining
PPD members when a departmental violation occurs.

34a
Appendix B
Defendants argue that the inclusion of Plaintiff’s
Facebook comment on the PVP website is not capable of
a defamatory meaning, that Plaintiff’s claims are based
on Defendants’ opinions and are therefore not actionable
as a matter of law, and that Plaintiff has not and cannot
plead actual malice.12
i. 	Defamatory Meaning/Opinion13
As an initial matter, the Court must determine
whether the communications complained of are capable
12. A fter oral argument, the Court permitted focused
supplemental briefing on one of Defendants’ Section 230 arguments.
In their supplemental briefing, Defendants went beyond their
permit and included a new argument, not included in their motion to
dismiss, to the effect that the PVP website is not sufficiently “of and
concerning” Plaintiff to be defamatory to him. As such, the Court
disregards it. See United States v. Medco Health Solutions, Inc., 2017
U.S. Dist. LEXIS 1357, 2017 WL 63006, at *6 n.6 (disregarding new
arguments raised in supplemental briefing that were not responsive
to the court’s request for limited supplemental briefing); see also
McWreath v. Range Resources-Appalachia, LLC, 645 F. App’x 190,
197 (3d Cir. 2016) (Jordan, J., concurring) (noting “new arguments
made in a supplemental filing” are the “functional equivalent of an
extra reply brief”); United States v. Cruz, 757 F.3d 372, 387-88 (3d Cir.
2014) (arguments raised for the first time in a reply brief are waived).
13. Although Plaintiff advances a claim of defamation-byimplication, he sometimes refers to defamation-by-innuendo.
Courts often analyze defamation-by-implication and-innuendo
interchangeably. See, e.g., Mzamane v. Winfrey, 693 F. Supp.2d 442,
477 (E.D. Pa. 2010) (“Pennsylvania courts recognize that a claim for
defamation may exist where the words utilized themselves are not
defamatory in nature, however, the context in which these statements
are issued creates a defamatory implication, i.e., defamation by
innuendo.”) (collecting cases). Regardless, at oral argument, Plaintiff
clarified that he is proceeding on a defamation-by-implication theory.

35a
Appendix B
of a defamatory meaning. See U.S. Healthcare, Inc. v.
Blue Cross of Greater Philadelphia, 898 F.2d 914, 923 (3d
Cir. 1990); City of Rome v. Glanton, 958 F. Supp. 1026,
1041 (E.D. Pa. 1997). “A communication is defamatory
if it tends to harm the reputation of another as to lower
him in the estimation of the community or to deter third
persons from associating or dealing with him.” Maier
v. Maretti, 448 Pa. Super. 276, 671 A.2d 701, 704 (Pa.
Super. 1995); see also Restatement (Second) of Torts §
559. The determination of whether the communication is
defamatory focuses on “the effect [the statement] is fairly
calculated to produce, the impression it would naturally
engender in the minds of the average persons among
whom it is intended to circulate.” Baker v. Lafayette Coll.,
516 Pa. 291, 532 A.2d 399, 402 (Pa. 1987). Even where
there is a plausible innocent interpretation, if there is
an alternative defamatory interpretation, the issue must
proceed to a jury to determine if the defamatory meaning
was understood by the recipient. Pelagatti v. Cohen, 370
Pa. Super. 422, 536 A.2d 1337, 1345 (Pa. Super. 1987),
app. denied, 519 Pa. 667, 548 A.2d 256 (Pa. 1988); see
also Kendall v. Daily News Publ. Co., 716 F.3d 82, 90 (3d
Cir. 2013).
“In making this determination, the Court must
address two questions: (1) whether the communication was
reasonably capable of conveying the particular meaning
ascribed to it by the plaintiff; and (2) whether that meaning
is defamatory in character.” Fraternal Order, 1996 U.S.
Dist. LEXIS 10897, 1996 WL 426709, at *4. When the
implication alleged by the plaintiff is not “reasonably
susceptible of a defamatory meaning,” the plaintiff has

36a
Appendix B
failed to state a claim. See Beverly Enters., Inc. v. Trump,
182 F.3d 183, 191 (3d Cir. 1999); Thomas Merton Center
v. Rockwell Int’l Corp., 497 Pa. 460, 442 a.2d 213, 215-16
(Pa. 1981).
defendants argue that the disclaimer on the PvP
website renders the statements of which Plaintiff
complains not reasonably capable of conveying the
meaning he ascribes to them. Plaintiff seeks to minimize
the import of the disclaimer, arguing that it is presented
only after the home page piques the visitor’s interest; it
may easily be overlooked; its positioning and length make
it likely that a viewer would fail to read it; and it is only
presented to the viewer the fi rst time he or she enters the
site. these arguments are not supported by screenshots
of the disclaimer from the website:

37a
Appendix B

as the screenshots show, the disclaimer is prominent,
robust, and presented in easily readable font. reading
just the fi rst two paragraphs would suffice to explain to
a viewer that the content on the PvP website is open to
debate. Indeed, the fi rst heading, “Multiple Meanings,”
suggests the PvP website content is open to many
interpretations.14
14. none of the cases cited by the parties in their arguments
regarding the disclaimer are sufficiently analogous to inform the
court’s opinion here. Stanton v. Metro Corporation, 438 f.3d 119,
126 (1st Cir. 2016), was about a disclaimer published in small font
next to an article and photograph about teenage sexual behavior.
Spilfogel v. Fox Broad. Co., 2009 U.S. dist. leXiS 139784, at *1-*2
(S.D. Fl. Dec. 1, 2009), was about an episode of COPS, which featured

38a
Appendix B
Turning now to the statements of which Plaintiff
complains, for the reasons set forth below, the Court finds
that they are inactionable opinions.
“Only statements of fact, not expressions of opinion,
can support an action for defamation.” Moore v. CobbNettleton, 2005 PA Super 426, 889 A.2d 1262, 1267 (Pa.
Super. 2005). Despite this general rule, an opinion that
could reasonably be understood to imply undisclosed
defamatory facts may support a cause of action based
upon those unenumerated facts. See Remick v. Manfredy,
238 F.3d 248, 261 (3d Cir. 2001). An opinion that could
not reasonably be construed as implying such facts will
not substantiate a defamation claim. See Cornerstone
Sys. v. Knichel Logistics, L.P., 255 F. App’x 660, 665 (3d
Cir. 2007). Whether a statement is a fact or an opinion is
a question of law. Kerrigan v. Otsuka Am. Pharm, Inc.,
560 F. App’x 162, 168 (3d Cir. 2014).
Cases in which challenged statements feature
equivocal or cautionary language are routinely dismissed
because the statements are non-actionable opinion. See,
e.g., Purcell v. Ewing, 560 F. Supp.2d 337, 340 (M.D.
Pa. 2008) (finding statements that alumnus looked
like “someone accused of child molestation” was nondisclaimers before and during the episode. Other cases do not feature
a disclaimer. See MacElree v. Philadelphia Newspapers, Inc., 544 Pa.
117, 674 A.2d 1050, 1054 (Pa. 1996); Davis v. Resources for Human
Dev., Inc., 2001 PA Super 73, 770 A.2d 353, 357 (Pa. Super. 2001); City
of Rome, 958 F. Supp. at 1041; Clemente v. Espinosa, 749 F. Supp.
672, 679 (E.D. Pa. 1990); Frederick v. Reed Smith Shaw & McClay,
1994 U.S. Dist. LEXIS 1809 (E.D. Pa. 1994).

39a
Appendix B
actionable opinion); In re Maze, 1999 U.S. Dist. LEXIS
11433, 1999 WL 554600, at *2 (E.D. Pa. July 16, 1999)
(finding statement in letter that plaintiff failed to pay
taxes, “which money he seemingly misappropriated from
his employees[,]” was non-actionable opinion); see also
Reardon v. Allegheny College, 2007 PA Super 160, 926
A.2d 477, 484 (Pa. Super. 2007) (finding use of the phrase
“might have” rendered statement non-actionable because
it was “a strong indication that this statement [was] merely
one outlining possibilities”).
The disclaimer includes crucial contextual language,
including that the Facebook posts in the database “could
be relevant to important public issues” and “are open to
various interpretations. We do not know what a poster
meant when he or she typed them. . . .” The disclaimer
next states:
The posts and comments included in the
database comprise portions of a user’s public
Facebook activity, and are therefore not
intended to present a complete representation
of each person’s Facebook presence, or each
person’s views on any given subject. Inclusion
of a particular post or comment in this database
is not intended to suggest that the particular
poster or commenter shares any particular
belief or viewpoint with any other posts or
commenters in the database.
(all emphasis added).

40a
Appendix B
As the language of the disclaimer shows, Defendants
were “merely . . . outlining possibilities.” See Reardon,
926 A.2d at 484. The disclaimer is replete with “hedging
language” such as “could”, “[w]e do not know”, “we
believe,” etc. indicating that Defendants are suggesting
possibilities, not expressing certainties. See Alaskasland.
com, LLC v. Cross, 357 P.3d 805, 821 (Alaska 2015); see
also Others First, Inc. v. Better Business Bureau of
Greater St. Louis, Inc., 829 F.3d 576, 582 (8th Cir. 2016)
(finding statements couched in “equivocal language” such
as “appears” and “may” to be non-actionable opinion). “[I]f
it is plain that the speaker is expressing a subjective view,
an interpretation, a theory, conjecture, or surmise, rather
than claiming to be in possession of objectively verifiable
facts, the statement is not actionable.” Haynes v. Alfred
A. Knopf, Inc., 8 F.3d 1222, 1227 (7th Cir. 1993) (Posner,
J.). The statements of which Plaintiff complains fall into
that bucket and are accordingly non-actionable opinion.
In sum, the implications that Plaintiff belongs to a set
of current and former police officers who endorse violence,
racism, and bigotry and act in manners consistent with
these biases in their official capacity; that Plaintiff
endorses violence, racism, and bigotry; that Plaintiff is
not carrying out his oath of office with integrity; that
Plaintiff acts in a manner that undermines trust in police;
and that he does not treat people equally are not capable
of defamatory meaning. They are statements of opinion
by Defendants that readers could view Plaintiff in that
way—leaving open the possibility that they also could not.

41a
Appendix B
ii.

Actual Malice

Plaintiff’s claims fail for the additional reason that he
has not sufficiently pled actual malice.
The parties do not dispute that as an inspector with
a leadership role within the PPD, Plaintiff is a public
official who must properly plead actual malice for his
defamation claim to progress. See St. Surin v. Virgin
Islands Daily News, Inc., 21 F.3d 1309, 1317, 30 V.I. 373
(3d Cir. 1994). “Actual malice” in constitutional law is “a
term of art denoting deliberate or reckless falsification.”
Masson v. New Yorker Magazine, 501 U.S. 496, 499, 111 S.
Ct. 2419, 115 L. Ed. 2d 447 (1991); see also Harte-Hanks
Comms., Inc. v. Connaughton, 491 U.S. 657, 666, 109 S.
Ct. 2678, 105 L. Ed. 2d 562 (1989) (“emphasizing that the
actual malice standard is not satisfied merely through a
showing of ill will or ‘malice’ in the ordinary sense of the
term”). For actual malice, “neither negligence nor failure
to investigate, on the one hand, nor ill will, bias, spite, nor
prejudice, on the other, standing alone, [are] sufficient to
establish either a knowledge of the falsity of, or a reckless
disregard of, the truth or falsity of the materials used.”
St. Surin, 21 F.3d at 1317 (quoting Goldwater v. Ginzburg,
414 F.2d 324, 342 (2d Cir. 1969)). “Reckless disregard”
requires a showing that the defendant either “in fact
entertained serious doubts as to truth of [the] publication,”
St. Amant v. Thompson, 390 U.S. 727, 731, 88 S. Ct. 1323,
20 L. Ed. 2d 262 (1968), or had a “high degree of awareness
of . . . probable falsity[,]” Garrison v. Louisiana, 379 U.S.
64, 74, 85 S. Ct. 209, 13 L. Ed. 2d 125 (1964). The Third
Circuit has also held that the actual malice standard is

42a
Appendix B
higher in defamation-by-implication cases, requiring a
showing beyond knowledge of or recklessness regarding
the falsity of the statement’s defamatory meaning:
[I]n defamation-by-implication cases, showing
known falsity alone is inadequate to establish
an intent to defame. In these cases, we
may no longer presume with certainty that
the defendants knew they were making a
defamatory statement because the statement
has defamatory and nondefamatory meanings.
Therefore, in such cases, plaintiffs must show
something that establishes defendants’ intent
to communicate the defamatory meaning.
Kendall, 716 F.3d at 90 (emphasis added).
In the wake of Iqbal and Twombly, “adequately
pleading actual malice is an onerous task[.]” Earley v.
Gatehouse Media Pennsylvania Holdings, Inc., 2015 U.S.
Dist. LEXIS 31065, 2015 WL 1163787, at *2 (M.D. Pa. Mar.
13, 2015); see, e.g., Iqbal, 556 U.S. at 687 (“Rule 8 does not
empower [plaintiff] to plead the bare elements of his cause
of action, affix the label ‘general allegation,’ and expect
his complaint to survive a motion to dismiss.”).15 And it is
15. The Eleventh Circuit has eloquently articulated why
meeting the Iqbal and Twombly standard is especially crucial in
defamation suits against public officials:
In these cases, there is a powerful interest in ensuring
that free speech is not unduly burdened by the necessity
of defending against expensive yet groundless

43a
Appendix B
one that regularly results in early dismissal of an action.
See, e.g., McCafferty v. Newsweek Media Grp., Ltd., 2019
U.S. Dist. LEXIS 36543, 2019 WL 1078355, at *6 (E.D.
Pa. Mar. 7, 2019) (dismissing complaint with prejudice, in
part because plaintiffs “failed to sufficiently allege actual
malice”); Earley, 2015 U.S. Dist. LEXIS 31065, 2015
WL 1163787, at *3 (dismissing complaint with prejudice
for “fail[ing] to provide any facts that could plausibly
demonstrate that defendant acted with actual malice”);
Biro v. Condé Nast, 807 F.3d 541, 546-47 (2d Cir. 2015)
(affirming dismissal of defamation action where plaintiff’s
nonconclusory allegations against defendants fell “short of
raising a plausible inference of actual malice”); Schatz v.
Republican State Leadership Comm., 669 F.3d 50, 57-58
(1st Cir. 2012) (affirming dismissal of complaint where none
of plaintiff’s pleadings “plausibly suggested that defendant
acted with actual malice”); Mayfield v. NASCAR, Inc.,
674 F.3d 369, 378 (4th Cir. 2012) (affirming dismissal of
defamation action on the pleadings for failure to plausibly
suggest actual malice); Pippen v. NBCUniversal Media,
LLC, 734 F.3d 610, 614 (7th Cir. 2013) (same).
litigation. Indeed, the actual malice standard was
designed to allow publishers the ‘breathing space’
needed to ensure robust reporting on public figures
and events. Forcing publishers to defend inappropriate
suits through expensive discovery proceedings in all
cases would constrict that breathing space in exactly
the manner the actual malice standard was intended
to prevent. The costs and efforts required to defend
a lawsuit through that stage of litigation could chill
free speech nearly as effectively as the absence of the
actual malice standard altogether.
Michel v. NYP Holdings, Inc., 816 F.3d 686, 702 (11th Cir. 2016).

44a
Appendix B
A review of Plaintiff’s Complaint reveals that he has
failed to plead actual malice. The Complaint makes no
reference to key actual malice terms like “knowledge
of falsity” and does not contain any factual allegations
that suggest such knowledge. It merely recites that
Defendants acted in a “malicious, intentional and
reckless” manner. Although in his brief Plaintiff asserts
that Defendants engaged in “obvious and apparent
journalistic misconduct[,]” such “[t]hreadbare recitals
of the elements of a cause of action, supported by mere
conclusory statements, do not suffice[,]” and the Court
must disregard them. See Iqbal, 556 U.S. at 678.
Further, at oral argument, Plaintiff pointed to two
paragraphs of the Complaint in support of his actual
malice argument—but neither of them do. The first one
states: “Plaintiff D F Pace has never made any type of
post which denigrates persons on the basis of race, color,
religion, ethnicity, sex or sexual orientation. He detests
such attitudes.” (emphasis in original). Plaintiff used this
allegation to suggest that if Defendants had investigated
Plaintiff, they would have found he does not meet the
PVP website’s criteria and would not have included his
post. But “[f]ailure to investigate, without more, does
not demonstrate actual malice.” Marcone v. Penthouse
Int’l Magazine, 754 F.2d 1072, 1083 (3d Cir. 1985) (citing
St. Amant, 390 U.S. at 731). Plaintiff would have to plead
facts that Defendants “purposefully avoided further
investigation with the intent to avoid the truth.” Michel,
816 F.3d at 703.
The second paragraph of the Complaint to which
Plaintiff refers as evidence of actual malice contains the

45a
Appendix B
following quote published in The Guardian newspaper on
June 25, 2019 and attributed to Defendant Baker-White:
“When I look at those posts I don’t see them as individual
posts at this point. . . . I see them in the aggregate as a
body of statements and they seem like they’re part of a
larger narrative that exists in American policing, one
that at times encourages violence or endorses vigilantism
and discriminates against minority communities.” But
Defendant Baker-White’s perspective on the Facebook
posts, as stated to a newspaper after the PVP website
launched, does not plausibly suggest actual malice in
selecting Plaintiff’s comment for reposting on the site.
The statement does not reveal that Defendant BakerWhite “entertained serious doubts as to truth of [the]
publication,” St. Amant, 390 U.S. at 731, or had a “high
degree of awareness of . . . probable falsity.” Garrison,
379 U.S. at 74.
Plaintiff has not pled actual malice, and for this
additional reason, the Complaint must be dismissed.16 An
appropriate order follows.
January 13, 2020
16. The Complaint is dismissed with prejudice. Although leave
to amend should be freely granted “when justice so requires . . . a
court may deny leave to amend when such amendment would be
futile.” Budhun v. Reading Hosp. and Medical Ctr., 765 F.3d 245,
259 (3d Cir. 2014) (internal quotations omitted). “Amendment would
be futile if the amended complaint would not survive a motion to
dismiss for failure to state a claim.” Id. Plaintiff offers no facts—nor
can he—to plausibly support Defendants’ knowledge of falsity of any
of the challenged statements, and he therefore cannot sufficiently
plead actual malice to state a defamation claim.

46a
Appendix B
by the court:
/s/ Wendy beetlestone, j.
Wendy beetlestone, j.
figure 1 (plaintiff’s comment).

47a
Appendixof
C rehearing of
Appendix C — denial
the united states court of appeals for
the third circuit, filed april 13, 2021
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 20-1308 & 20-1401
D F PACE, ESQUIRE,
Appellant,
v.
EMILY BAKER-WHITE, Esquire; FEDERAL
COMMUNITY DEFENDER OFFICE FOR THE
EASTERN DISTRICT OF PENNSYLVANIA;
PLAINVIEW PROJECT; INJUSTICE WATCH.
(D.C. No. 2-19-cv-04827)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and *ROTH, Circuit Judges
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the judges
* Judge Roth’s vote is limited to panel rehearing.

48a
Appendix C
who participated in the decision of this Court and to all
the other available circuit judges of the circuit in regular
active service, and no judge who concurred in the decision
having asked for rehearing, and a majority of the judges
of the circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel and the
Court en banc, is DENIED.
BY THE COURT,
s/ Jane R. Roth		
Circuit Judge
Dated: April 13, 2021

